<html>
<title> - CONSOLIDATING INTELLIGENCE ANALYSIS: A REVIEW OF THE PRESIDENT'S PROPOSAL TO CREATE A TERRORIST THREAT INTEGRATION CENTER</title>
<body><pre>[Senate Hearing 108-54]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-54

                  CONSOLIDATING INTELLIGENCE ANALYSIS:
                  A REVIEW OF THE PRESIDENT'S PROPOSAL
                      TO CREATE A TERRORIST THREAT
                           INTEGRATION CENTER

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        FEBRUARY 14 AND 26, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



86-773              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
               David A. Kass, Chief Investigative Counsel
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
        Michael A. Alexander, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins.............................................. 1, 45
    Senator Lieberman............................................     3
    Senator Sununu...............................................     5
    Senator Lautenberg...........................................    20
    Senator Pryor................................................    23
    Senator Akaka............................................... 26, 56
    Senator Coleman..............................................    47
Prepared statement:
    Senator Shelby...............................................    74

                               WITNESSES
                       Friday, February 14, 2003

Hon. Warren B. Rudman, Co-Chair, U.S. Commission on National 
  Security/21st Century..........................................     7
Hon. James S. Gilmore, III, Chairman, Advisory Panel to Assess 
  the Capabilities for Domestic Response to Terrorism Involving 
  Weapons of Mass Destruction....................................     9
James B. Steinberg, Vice President and Director of Foreign Policy 
  Studies, The Brookings Institution.............................    30
Jeffrey H. Smith, Former General Counsel (1995-1996), Central 
  Intelligence Agency (CIA)......................................    33

                      Wednesday, February 26, 2003

Winston P. Wiley, Associate Director of Central Intelligence for 
  Homeland Security and Chair, Senior Steering Group.............    48
Pasquale J. D'Amuro, Executive Assistant Director for 
  Counterterrorism/Counterintelligence, Federal Bureau of 
  Investigation (FBI)............................................    52
Hon. Gordon England, Deputy Secretary, Department of Homeland 
  Security.......................................................    53

                     Alphabetical List of Witnesses

D'Amuro, Pasquale J.:
    Testimony....................................................    52
    Prepared statement...........................................   117
England, Hon. Gordon:
    Testimony....................................................    53
Gilmore, Hon. James S., III:
    Testimony....................................................     9
    Prepared statement...........................................    76
Rudman, Hon. Warren B.:
    Testimony....................................................     7
Smith, Jeffrey H.:
    Testimony....................................................    33
    Prepared statement...........................................   100
Steinberg, James B.:
    Testimony....................................................    30
    Prepared statement...........................................    95
Wiley, Winston P.:
    Testimony....................................................    48
    Prepared statement...........................................   113

                                Appendix

Response to Senators Levin and Collins transcript request from 
  Mr. Wiley referred to on page 69...............................    73
Chart entitled ``Primary Agencies Handling Terrorist-Related 
  Intelligence (With Terrorist Threat Integration Center),'' 
  submitted by Senator Collins...................................   119
Responses to Post-Hearing Questions for the Record from Senator 
  Akaka for:
    Mr. Wiley....................................................   120
Responses to Post-Hearing Questions for the Record from Senator 
  Shelby for:
    Mr. Wiley....................................................   127
    Hon. England.................................................   133

 
                  CONSOLIDATING INTELLIGENCE ANALYSIS:
                  A REVIEW OF THE PRESIDENT'S PROPOSAL
                      TO CREATE A TERRORIST THREAT
                           INTEGRATION CENTER

                              ----------                              


                       FRIDAY, FEBRUARY 14, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Sununu, Lieberman, 
Akaka, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today the Committee on Governmental Affairs 
will review the President's recent proposal to create a new 
Terrorist Threat Integration Center. The President's 
announcement of this new center is the latest in the series of 
actions taken by the administration and by Congress to address 
the government's serious failure to analyze and act upon the 
intelligence it gathers related to terrorism.
    Some of these failures have become well known. For example, 
in January 2000 the CIA learned of a meeting of al Qaeda 
operatives that was taking place in Malaysia. The CIA knew that 
one of the participants in this meeting, Khalid al-Midhar, had 
a visa to enter the United States. It failed, however, to list 
his name on the terrorist watch list and he entered the country 
just 2 weeks later. Al-Midhar returned to Saudi Arabia and in 
June 2001 he received yet another U.S. visa. Although 1\1/2\ 
years had passed, his name was still not on the watch list.
    The CIA did not conduct a review of the Malaysian meeting 
until August 2001. Following that review it finally placed al-
Midhar on the terrorist watch list. By then, of course, it was 
too late. He was already in the United States and within weeks 
would participate in the September 11 attacks on our Nation.
    Failures such as these were not unique to the CIA. In July 
2001, an FBI agent in the Phoenix field office warned his 
superiors that Osama bin Laden appeared to be sending some of 
his operatives to the United States for flight training. The 
agent recommended a number of actions the Bureau should 
undertake, but his recommendations were ignored.
    One month later, agents in the FBI's Minneapolis field 
office detained Zacarias Moussaoui, a former student pilot, 
based on suspicions that he was involved in a hijacking plot. 
FBI headquarters denied the Minneapolis agents permission to 
apply for a court order to search Moussaoui's belongings. 
According to the joint inquiry conducted by the Senate and the 
House Intelligence Committees, this decision was based on a 
faulty understanding of the Foreign Intelligence Surveillance 
Act.
    These are only a few of the most publicized and notable 
examples of the government's failure to analyze, share, or act 
on critical intelligence information. The Joint Congressional 
inquiry into the September 11 attacks lamented that the U.S. 
Government does not presently bring together in one place all 
terrorism related information from all sources. While the 
Counter Terrorist Center does manage overseas operations and 
has access to most intelligence community information, it does 
not collect terrorism related information from all sources 
domestic and foreign.
    In addition, the Congressional inquiry found that 
information was not sufficiently shared not only between 
different intelligence community agencies but also within 
individual agencies, and between intelligence and law 
enforcement agencies.
    Now some steps have been taken to address these problems. 
The FBI has begun to place greater emphasis on developing its 
analytical capability. It has expanded its joint terrorism task 
forces and it is attempting to improve its relationship and 
communication with the CIA. More FBI personnel have been 
assigned to the CIA's Counter Terrorist Center and more CIA 
agents now work at the FBI's Counterterrorism Division.
    In addition, Congress took significant action aimed at 
improving the analysis and flow of intelligence information by 
creating the new Department of Homeland Security. One of the 
Department's directorates will be devoted to information 
analysis and infrastructure protection.
    In addition to these steps, the President has announced 
that he believes a new independent entity is needed. The 
proposal advanced by the President would create a Terrorist 
Threat Integration Center that is the focus of our hearing 
today. The center would ensure that intelligence information 
from all sources is shared, integrated, and analyzed seamlessly 
and then acted upon quickly, to quote the President. The new 
center would include staff from the Department of Homeland 
Security, the FBI, the CIA, and the Department of Defense.
    As of yet, however, we know few details about the proposed 
integration center. We have many questions regarding its 
structure, the scope of its authority, how it will interact 
with other agencies in the intelligence community as well as 
law-enforcement agencies, and even where it should be located, 
in which department?
    I believe that there are three principles that should guide 
the center's creation. First, the integration center should not 
be duplicative. Many government agencies currently conduct 
intelligence analyses. We should be working to combine these 
efforts, not duplicate them.
    Second, emphasis must be placed on sharing the integration 
center's analytical product. Good intelligence collection and 
analysis currently exists. Too often, however, the information 
does not get to those people who need it in a timely manner or 
in a form that is useful. The integration center needs to focus 
on sharing its product with other Federal agencies and, equally 
important, with appropriate State and local agencies.
    Third, the integration center must be structured in a way 
that breaks through the bureaucratic barriers that exist still 
among intelligence agencies and not hide behind them.
    I hope that today's hearing will help the President achieve 
those goals. We will review what we now know about the 
integration center, and we will ask our very distinguished 
witnesses today to discuss the elements that are necessary for 
this new entity to be the successful and efficient center that 
our President envisions and our country needs.
    I would now like to turn to the distinguished Ranking 
Member of the Committee, Senator Lieberman, for any opening 
remarks that he might have.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman, for holding 
this hearing, and also for your excellent opening statement.
    I consider the topic of the hearing to be one of the more 
important offensives, if I can put it that way, in the war 
against terrorism, which is the consolidation of information 
and intelligence regarding the threats that are received daily 
from an array of sources available to our government. The 
intelligence disconnect, some of which you described in your 
opening statement, Madam Chairman, that in part led to the 
September 11 terrorist attacks are an embarrassment that should 
never have happened in the first place and we must never allow 
to happen again. I appreciate your leadership here in calling 
this hearing, the first, I believe, on the President's State of 
the Union proposal to overcome some of our intelligence 
failures which is, of course, a matter of urgency.
    I also want to join you in welcoming our witnesses, Senator 
Rudman, particularly, our colleague, our never-ending source of 
wisdom, even good humor, who has proven, as my wife keeps 
telling me, that one has ample opportunities outside of public 
service to continue to serve the public and he has done it 
really well.
    Governor Gilmore, thank you for being here again. Mr. Smith 
and Mr. Steinberg, the same.
    I am disappointed that we are not going to hear from an 
administration representative today. I gather they could not 
make it today, but I am hopeful that we will have the 
opportunity soon because we have a lot of questions for them.
    We are now in the midst of a Code Orange, as everyone 
knows, a high terror alert. That combined with warnings from 
the directors of the FBI and CIA that another terrorist attack 
might be imminent, perhaps as early as this week, along with 
official suggestions that citizens create safe rooms in their 
homes and stockpile food and water, has understandably created 
widespread anxiety throughout our country. We must take this 
moment to allay the fear, but also to galvanize our government 
and to motivate all Americans to help make our country safe 
again. Creation of an effective intelligence analysis center is 
a vital step in that direction.
    The disastrous disconnects among our intelligence agencies, 
the culture of rivalry rather than cooperation, turf battles 
rather than teamwork that have plagued the intelligence 
community have been well-documented elsewhere. For some time, a 
large number of people inside and outside of Congress have been 
advocates for a central location in our government where all 
the intelligence collected by the various agencies that make up 
the intelligence community, as well as open source information 
and information collected by Federal, State, and local law 
enforcement agencies can be brought together and analyzed, 
synthesized, and shared.
    The idea is, in the familiar metaphor, to connect all the 
dots to create a full picture so that we have a kind of early 
warning on what our adversaries are up to, where they are 
planning to strike so that we can stop them before their plans 
are carried out.
    Last year, as part of the debate on the Homeland Security 
bill this Committee approved the creation of such an office. We 
were greatly aided in our work by Senator Arlen Specter and by 
the co-chairs of the Senate Intelligence Committees, Senator 
Richard Shelby and Senator Bob Graham. In fact after 
investigating the September 11 attacks, the Senate and House 
Intelligence Committees called on Congress and the 
administration to use the authority provided in the Homeland 
Security Act to establish an all-sources intelligence division 
within the Homeland Security Department. And the Intelligence 
Committee went on to lay out several criteria for this analysis 
center which I will include in the record, Madam Chairman, 
rather than reciting here.
    We had a bit of a debate during the last session on this. 
Our Committee originally proposed something very similar to 
what the Intelligence Committee was asking. The administration 
originally argued that the Department of Homeland Security's 
role here should be limited to analyzing intelligence primarily 
to protect critical infrastructure. The final legislation 
created a division within the new department that would be a 
central location for all threat information. Now I take the 
administration's proposal to have created a broad consensus and 
common ground that many have been fighting for all along, which 
is to create an all-sources intelligence analysis center.
    There remains a matter of structural disagreement, which I 
hope this Committee can consider and shed some light on, and 
hopefully extend the consensus. The President, obviously, would 
have the new center report to the Director of Central 
Intelligence rather than the Secretary of Homeland Security. I 
would like, in the weeks ahead for the administration to tell 
us how they think, if they do, that this center that they are 
proposing differs from the one created by the Homeland Security 
Act and why they have chosen to move in this direction rather 
than implementing that provision of the act.
    It needs to tell us how the so-called TTIC--as an entity 
reporting to the Director of Central Intelligence--will 
overcome the institutional rivalries to information sharing 
that has already hindered the Counter Terrorist Center at the 
CIA, and other agencies in the intelligence community--from 
becoming truly all-source intelligence analysis centers.
    It must answer questions about the center's role, if any, 
in the collection of domestic intelligence, and about the 
wisdom of expanding the role of the Director of Central 
Intelligence in domestic intelligence.
    The administration needs to let the Congress know why the 
center's director should not be confirmed by the Senate. I am 
also interested in understanding what the center's role will be 
with respect to disseminating intelligence analysis to other 
Federal agencies and to State and local law enforcement, and 
how it proposes to collect information from them.
    As the witnesses and my colleagues on the panel know, 
States local officials complain to each of us that they have 
not, up until this time, been kept in the loop by Federal law 
enforcement and intelligence agencies. And there are many 
questions about the proposed budget of the TTIC; the number of 
analysts it will have and the administration's timetable for 
getting it up and running.
    I know that we have extraordinary witnesses, very able and 
experienced who can help us illuminate and answer some of these 
questions and as I say, Madam Chairman, I look forward to 
discussing them directly with the administration's 
representatives at the earliest possible date. But for now I 
thank you for holding this hearing and for moving as 
expeditiously as you have to examine what is clearly one of the 
most important issues we face in the near term in shoring up 
our homeland defenses. Thank you.
    Chairman Collins. Thank you, Senator Lieberman. We will be 
having a second hearing at which administration witnesses will 
be called to testify. I, like you, look forward to hearing more 
from them on the details and the answers to the many important 
questions that your statement raised.
    We are now going to move to our first panel. We are 
fortunate this morning to have two extraordinary public 
servants who have given a great deal of their time and energy 
and thought to analyzing our Nation's intelligence needs. We 
are very fortunate to be joined by former Senator Warren 
Rudman, and former Governor James Gilmore. I am fighting with 
Senator Sununu for the honor of introducing Senator Rudman. I, 
too, consider him to be a constituent since he does have a home 
in Maine. But I think that your claim, Senator Sununu, probably 
goes back further so I will yield to you to introduce Senator 
Rudman.

              OPENING STATEMENT OF SENATOR SUNUNU

    Senator Sununu. Thank you very much, Madam Chairman. It is 
an honor to serve in the Senate, and despite having served in 
the House for 6 years, as a new member of the Senate you come 
with some deal of trepidation. We all know that we walk in the 
shadows of our predecessors and we are prepared to deal with 
that, but it does not change the fact that sitting here in this 
Committee room for our first hearing I was a little bit 
surprised to hear Senator Rudman's name invoked a half a dozen 
times before I even got a chance to talk. And now we have a 
hearing scheduled, and of course he's here to provide his 
perspective on such an important topic.
    But rather than be discomfited by this, I fully understand 
the reason. It is an honor to serve in his footsteps but it is 
also an honor to be a part of this Committee and to be able to 
bring him forward to provide his wealth of experience.
    He has served as a Korean War veteran, as Attorney General 
for the State of New Hampshire, as a U.S. Senator, and as a 
leader of this Committee during an important time in dealing 
with questions of intelligence, oversight, and foreign policy, 
that being the hearings on Iran-Contra.
    He has remained dedicated to public service even, as 
Senator Lieberman has pointed out, after leaving the U.S. 
Senate. He has been a member of the President's Intelligence 
Advisory Board, a winner of the Presidential Gold Medal for his 
service, in particular in acting as an adviser and a resource 
on questions of intelligence. The reason his perspective has 
been so important in that regard is because he has worked with 
local law enforcement in the process of gathering and providing 
intelligence from that grass roots level.
    He has, of course, worked in a great capacity in the U.S. 
Senate dealing with Congressional oversight and our role in 
understanding how intelligence is gathered and used to provide 
for national security. He has served in the executive capacity 
as well, offering advice on the consolidation, use of 
intelligence, and sharing of intelligence.
    I cannot imagine someone who is more qualified to provide 
an important perspective on the challenge we now face, but I 
also cannot think of a challenge that is greater for the new 
Department of Homeland Security. Consolidating our intelligence 
resources, breaking down some of the cultural barriers that 
have existed to effective intelligence sharing in the past has 
been identified by this Committee and by others looking at the 
new Department of Homeland Security as one of the premier 
challenges this organization will face.
    Being able to rely on the expert perspective of Governor 
Gilmore and my friend Warren Rudman is essential to us doing 
this right the first time. Warren Rudman has been a great 
friend to me and a great friend to my family. There is always a 
wealth of pride that comes from that kind of a long-standing 
personal relationship, but in New Hampshire he is also regarded 
as a great citizen and a great public servant and that is why 
it is really a pleasure to be able to introduce him here today. 
Welcome, Senator Rudman.
    Chairman Collins. Thank you, Senator Sununu.
    Our other panelist, James S. Gilmore, served as Governor of 
Virginia from 1998 to 2002. Since 1999, he has been the 
chairman of the Congressional advisory commission on terrorism 
and weapons of mass destruction, which everyone calls the 
Gilmore Commission. In December 2002, the Gilmore Commission 
issued its fourth report which focused in part on the creation 
of an intelligence fusion center. The Gilmore Commission 
recommended the creation of a national Counter Terrorist Center 
as a stand-alone agency outside of the FBI, CIA, and DHS. It 
also recommended that this entity be an independent agency with 
a leader appointed by the President and confirmed by the 
Senate.
    Gentlemen, I am very grateful to have you join us this 
morning. I look forward to hearing your opening statements. I 
would ask that you limit them to about 10 minutes and your 
longer written statement, if any, will be submitted for the 
record without objection.
    Senator Rudman, we will start with you. Again, thank you 
for being here.

 TESTIMONY OF HON. WARREN B. RUDMAN, CO-CHAIR, U.S. COMMISSION 
               ON NATIONAL SECURITY/21ST CENTURY

    Mr. Rudman. Good morning, Madam Chairman, Senator 
Lieberman. First, let me thank my friend John Sununu for that 
very gracious introduction. I must tell you, though it is very 
elevating to be back in this hearing room where I spent so much 
time, it is a bit depressing to look at Senator Sununu and 
realize that he was 16 years of age when he and his father and 
I campaigned against each other in a Republican primary for the 
U.S. Senate. That tells me how young he is and how old I am, 
and that is a bit depressing.
    I am also delighted to see my old friend, Senator 
Lautenberg, and glad to meet for the first time, Senator 
Coleman.
    Madam Chairman, you and the Ranking Member have really 
asked a number of questions that are the questions that have to 
be answered. I doubt very much either Governor Gilmore and I 
can answer all of those questions because, although I am very 
familiar with this proposal and how it has come to be, it is 
still very much an embryonic proposal. I think one of the 
reasons you do not have administration witnesses here today is 
they wanted to be prepared to answer those very searching 
questions which I think are key.
    I think maybe the most important question that you both 
referred to in your opening statements is simply this: We are 
all very familiar with the Homeland Security Act. Senator Hart 
and our commission proposed that department and testified many 
times here before the House and the Senate. It finally evolved 
in pretty much the shape that we had hoped it would, but I have 
never really quite understood how the intelligence function 
within the Department of Homeland Security will be discharged. 
I am even confounded more with the creation of this new 
department, or this new joint venture if you will, which I 
fully support, but there has to be some sort of sharp 
delineation between the mission of the intelligence unit 
mandated by the Congress within the Department of Homeland 
Security and this new threat integration center which will be 
an all-source, all-agency unit.
    If you are not careful you will start having some crosstalk 
here between these two agencies, and the last thing you need in 
either collection or analysis is not only competition but 
confusion. So I hope that when the administration comes here, 
and I am sure they will, they will set out for you precisely 
what that is. I tried to find out for the last several days by 
talking to some of my friends and, frankly, I do not think that 
has clearly evolved, and that is understandable. This proposal 
was only evolved about a month or so ago, presented by the 
President in the State of the Union. I think when you finally 
have those witnesses here you will probably get a clear 
understanding. But I think that is one of the most important 
questions.
    When I look back at my 9 years on the President's Foreign 
Intelligence Advisory Board and chairing the board and looking 
at all sorts of all-source, raw, sophisticated, non-
sophisticated, signals and human intel, two things occur to me. 
That the massive intelligence that is received by both U.S. 
foreign intelligence agencies and the FBI and domestic 
intelligence is daunting. The amount of reporting--I sometimes 
think we have too much reporting, not not enough.
    A good example, for those of you that have had experience 
on the Intelligence Committee, or in the Armed Services 
Committee, is the amount of information received by the 
National Security Agency. The amount of signal intel received 
there, and how it gets analyzed, and how it get 
compartmentalized, and how it gets separated is truly a 
daunting task. Now we are faced with a new issue, which is why 
I think this proposal has been made.
    We have two distinctly different kinds of intelligence that 
this government receives. One, foreign intelligence based on 
threats that are non-terrorist, that are state-sponsored as 
opposed to non-governmental organizations which are terrorist 
organizations such as al Qaeda, Hamas, Islamic Jihad, and many 
others. It is very easy, or easier, to target state-sponsored 
terrorism, or if you will, state-sponsored military action, 
which is what the CIA and the NSA and all the other agencies 
have done well over a long period of time.
    It is far more difficult to try to direct intelligence, 
both signals and human intel, against people who you do not 
know who they are sometimes. They do not have an address. We do 
not know where they live. We do not know how they are 
organized. So first you have to figure that out before you know 
how to collect.
    So what they are now going to do, from what I understand, 
is to take and put together a joint venture, to put it in 
corporate terms. This is not going to be a new department or a 
new agency. It is going to be a joint venture of the CIA, the 
FBI, the State Department, the Department of Homeland Security, 
and all of the Defense Department intelligence agencies, from 
the NSA to the NRO, and all of them. They will be all located 
together and their job will be not collection--they will have 
nothing to do with collection. They will depend on traditional 
collection, foreign from CIA and all of the DOD agencies; 
domestic from the FBI, and all of their resources around the 
country. What they will do is to analyze in one place and 
collect in one place all the reporting on terrorism as opposed 
to the myriad of other things that the CIA does.
    Now one thing that has to be clearly understood by the 
public is that there seems to be an attitude out there that the 
CIA and the FBI are only concerned now with terrorism. That is 
hardly the case. There are a lot of issues in this world 
involving Asia, Europe, involving the Middle East that the CIA 
must report to policymakers on important intelligence. So this 
is not the only thing they have to do. The problem we have had 
is that it has all been amalgamated in one place even though 
the Director of the CIA and the Director of the FBI have 
labored mightily through the creation of Counter Terrorist 
Centers and joint terrorism centers to try to get it 
consolidated. Although that has worked, it probably has not 
worked well enough, so this proposal is before you.
    As I understand this proposal will be a group of 
individuals that will be solely charged with being the focal 
point for gathering collection, both foreign and domestic, on 
all matters of terrorism. Now curiously, although the number is 
classified I can tell you this, that the overwhelming amount of 
collection on domestic terrorism is collected overseas, which I 
think, Madam Chairman and Senator Lieberman, is probably the 
reason that the administration has decided, and I think wisely, 
that the Director of the CIA should be the person to whom the 
head of this new joint venture reports, because they will be 
dealing in the main with foreign intelligence. The domestic 
intelligence will be collected by the FBI, but since most of 
our adversaries in the area of terrorism are located overseas, 
although we certainly have some of them in this country, it is 
not surprising that the overwhelming amount of intelligence 
that is gathered on domestic terrorism is not gathered within 
the continental United States, Hawaii, or Alaska. It is 
collected in other places.
    So I think the structure is good. The problem will be, as 
someone once said, the devil is in the details, and I do not 
think any of us have enough detail now to be able to comment 
with any real accuracy on how it is all going to come together. 
My sense is that they have staged it about right. They are 
going to start small, and they believe they have anywhere from 
a 2 to a 4-year time line to get it fully functional, although 
it will be functioning as early as later this year. It will 
have representatives from the Bureau, from the Agency, State, 
and all of the DOD agencies. Their information technology will 
be unique in that it will connect with everyone else that is in 
this business. The Department of Homeland Security will do some 
collection through the Coast Guard, through the INS, or through 
the Border Patrol. It will also, I expect, report in to this 
unit.
    So I think that all I will say in this opening statement is 
that there are more questions right now than there are answers. 
I think the concept is very sound. I think we need a single 
place, not located at the FBI or the CIA, but a group of people 
from various parts of this government who form a team to 
analyze the kind of information that the Chairman referred to, 
which may have slipped through the cracks in the past. I think 
it is a sound proposal and I support it, but there are a lot of 
questions you are going to have to ask when you get the 
administration before you.
    Thank you.
    Chairman Collins. Thank you, Senator Rudman. Governor 
Gilmore.

TESTIMONY OF HON. JAMES S. GILMORE, III,\1\ CHAIRMAN, ADVISORY 
   PANEL TO ASSESS THE CAPABILITIES FOR DOMESTIC RESPONSE TO 
        TERRORISM INVOLVING WEAPONS OF MASS DESTRUCTION

    Mr. Gilmore. Thank you, Madam Chairman, Senator Lieberman, 
and Members of the U.S. Senate. Thank you for the opportunity 
to be here to carry out our advisory function on your behalf.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gilmore appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    I am the chairman of the advisory panel to assess domestic 
response capabilities with terrorism involving weapons of mass 
destruction. This is a panel that was created by law, by 
statute of the U.S. Congress at the initiation of the U.S. 
Congress.
    It was initiated by Congressman Curt Weldon, who saw the 
need for this, and then it was concurred with by the U.S. 
Senate as we moved forward. This discussion went forward at the 
end of 1998. The commission was stood up in January 1999. I was 
approached as Governor of Virginia and asked whether I would 
chair the commission. It is staffed by the Rand Corporation. 
The commission is now and has been in the past made up not by 
people from inside the Beltway, but instead the Congress in its 
wisdom decided to set up a committee that was different. The 
advisory panel that we have is heavy on fire, police, rescue, 
emergency services, health care, epidemiologists, including 
retired general officers and people from the intelligence 
community. So it is a bit of a different mix.
    In the first year that we met, in the year 1999 we did a 
threat assessment, and by statute every year we report on 
December 15 every year to the Congress and to the President. In 
that year, December 15, 1999, our first report was a threat 
assessment. We assessed the question of a genuine threat of 
weapons of mass destruction in the United States, and considerd 
at the end of the day that it was much less likely that those 
weapons could be acquired and delivered in the homeland than a 
conventional attack. We believed that a conventional attack of 
major proportions was much more probable.
    But we also refused to rule out the possibility of weapons 
of mass destruction as we had basically a 3-year commission and 
wanted to explore it further. We did say that we thought there 
was a need for a national strategy.
    In the second year when we reported in December 15, 2000 we 
did probably our most important policy work. At that time we 
reminded all authorities there needed to be a national 
strategy. We proposed the creation of a national office in the 
Office of the President to create such a national strategy. We 
defined that national strategy as not being Federal, but 
instead being Federal, State, and local all together.
    We were concerned about the issues of intelligence. At that 
time we recommended tossing out the rule that said that the CIA 
could not recruit bad guys overseas as being a fairly 
ridiculous rule. We recommended and pointed out the concern 
about stovepiping and the fact that intelligence was not being 
shared laterally across Federal agencies, and was absolutely 
not being shared vertically between Federal, State, and local 
authorities.
    In the third year, our closing year, we focused on certain 
areas where we thought the national strategy could be furthered 
by the work of the advisory panel, and that included health 
care, the concern about border controls, the use of Federal and 
locals, the use of the military and areas like that.
    Now we were basically done about the first week of 
September and sent the report off to the printer and got ready 
to go out of business a little early in October when the 
September 11 attack occurred. At the time, the Congress 
extended our commission 2 years. So we have finished our fourth 
report in December 15 of this year. This is our fourth report 
which we have submitted to the members of the Congress, the 
Senate and the House, and to the President.
    In this fourth report we go over a number of key issues. My 
admonition to the panel has been to try to stay ahead of this 
debate so that we could be of useful advice to the Senate and 
to the House. I think we have done that. I think we have stayed 
ahead of the debate as we have gone along.
    I might point out several crosscutting issues in the fourth 
report that I want to emphasize. Of all of our analysis, the 
crosscutting issues we have tried to emphasize is the 
importance of the civil liberties of the American people, 
because we are deeply concerned that we will overreact and fix 
problems structurally in such a way that we will imply dangers 
to the civil liberties of the American people.
    The second is the importance and the value of the State and 
local authorities, their need for funding, financing, 
strategizing, and exercising.
    The third is the implications of the private sector and the 
fact that most critical infrastructure is in the hands of the 
private sector, and the need to find a method by which the 
private sector is drawn in.
    And then fourth, intelligence, and the concern of all these 
crosscutting issues.
    Senators and Madam Chairman, the fourth report focuses on a 
broad range of areas. These are comprehensive reports, each of 
them that have come forward. They are extensive and detailed in 
a broad range of areas as I have laid out. The fourth report--I 
will just focus for a moment on the National Counter Terrorist 
Center that we proposed.
    On the intelligence section of this commission's report we 
expressed and focused our attention on the intelligence area. 
We saw a need for a fusion center. We have recommended it as 
the National Counter Terrorist Center. We called it the NCTC. 
Everybody in Washington has acronyms. That was ours. We 
recommended December 15 of this past year that there needed to 
be a fusion center to draw together information.
    The President announced in his State of the Union address 
the Terrorist Threat Integration Center (TTIC), which seems to 
be a parallel concept. We congratulate the President on his 
initiative. We believed in our recommendation that it needs to 
be a stand-alone agency. We spent the better part of the year 
discussing the issue of whether it should be in the Department 
of Homeland Security or in another agency. We recommended that 
it be in no other agency or department; that it be a stand-
alone agency, an independent agency like the EPA or FEMA or the 
General Services Administration.
    We recommended that the head of it be with the advice and 
the consent of the Senate. This parallels the recommendation 
that we had on the Office of Homeland Security in the year 2000 
where we recommended that it be at the advice and consent of 
the Senate in order to make the national legislature a full 
partner in all of these processes in the Executive Branch.
    We recommend that it not be in the Department of Homeland 
Security because the customers of this new agency, this new 
fusion center will not just be the Department of Homeland 
Security, but in addition, the Department of Justice, the 
Health and Human Services, Departments of Defense, State, and 
Agriculture. We believed that this structure of independence 
would make it a better and honest broker than having it in one 
particular department.
    We see the need for the States and localities to be tied 
in, and that this creates a vehicle for the fusion of 
information with the States and locals also, which is, by the 
way, where a broad mass of the information on law enforcement 
issues across this country is located. The Federal Government 
is poorer if they do not have the benefit of that information, 
and the States and locals are surely poorer if they do not have 
the benefit of the national collection information that is at 
the Federal level.
    The information we have is that it is still not a two-way 
street in terms of information going up and down the line 
between Federal, States, and locals but it is improving. In 
fact I had a meeting with Admiral Abbott, the President's 
homeland security adviser and they are instituting processes to 
facilitate that type of information.
    Ladies and gentlemen of the Senate, within our commission 
this is not controversial. This was, other than the fact that 
we debated some of the structural issues, the creation of a 
fusion center was easy; not a controversial proposal. I will 
not dwell on it, but I will point out that our commission, on 
the other hand, addressed the issue of the collection function, 
the gathering of counterintelligence information in the 
homeland. This was highly controversial within our commission. 
That debate is set out in its entirety in the report.
    There was a strong debate about whether or not to rely on 
the FBI to continue this counterintelligence function or 
whether a new organization should be set up. The debate was 
quite intense, quite a long discussion. I personally believe 
that we should require the FBI to carry out this function in 
its most effective way and hold them strictly accountable and 
build on their processes. That view was rejected by the 
commission. The commission has instead recommended very 
strongly that there be a new agency for the collection function 
here in the United States; a separate organization. I can 
discuss that in more detail as necessary, though it is not 
strictly, Madam Chairman, the subject of your discussion today.
    We did in our report recommend that the Congress must 
concentrate its oversight function. That it is too disparate. 
We have been saying it for years and continue to say it. We 
believe that the oversight function for this fusion center 
should be concentrated in the Intelligence Committees of the 
two houses.
    We do see this as different from some of the other 
proposals that are similar that have come forward. Senators 
Graham and Edwards have each suggested a fusion center also, 
although I believe they place it within the Department of 
Justice. Also there have been some suggestions that the 
intelligence gathering organization would look like the British 
MI5. We believe that while it is a similar concept, the 
American system probably would not tolerate a British 
organization quite like that.
    We believe the Department of Homeland Security should have 
the authority to directly levee intelligence requirements on 
this new fusion center. That is our recommendation. And we 
recommend that the Senate and House strongly urge or require 
the Attorney General to gather together all legal authorities 
in this country, which at this point are disparate and confused 
and misunderstood in broad measure, in order to make sure that 
everybody knows what everybody is doing and what they should 
and should not do, so we make sure that we protect the 
liberties of the American people.
    That I think, Senator, sums up your official advisory 
panel's recommendations. We are here at all times, naturally, 
at your disposal to continue to provide advice and counsel.
    Chairman Collins. Thank you very much, Governor.
    I was very pleased to hear your emphasis on protecting the 
civil liberties of the American people as we seek to have that 
organizational structure that will allow us to do a better job 
of connecting the dots. The administration is not planning to 
submit legislation to create the new center. Do you think it 
would be advisable for Congress to legislatively create the 
center in order to have the kinds of legal protections to 
ensure that civil liberties are not infringed upon?
    Mr. Gilmore. It would depend upon the way that the Senate 
and the House decided that they wished to define this. It is 
clear the administration believes that they have the 
administrative authority to, as Senator Rudman says, to create 
a joint venture and bring these organizations together. I 
suspect that what is at work here is an effort to try and 
experiment with this, and to draw together the people into one 
located place, as opposed to going into a legislative process 
at the beginning, which then at that point involves a great 
deal of bureaucracy and setting structures into place by 
statute. My suspicion at this point and belief is that the 
administration thinks that they would like to try it 
administratively, see how well it works. Then I would think at 
that point the option would be open to the President and the 
Congress to more institutionalize it by statute.
    Chairman Collins. You mentioned in your testimony that you 
did not think that this new entity should be part of the 
Department of Homeland Security because DHS will be a customer 
of it. You also said the commission recommended that it be a 
separate entity. What do you think of the President's plan to 
have the entity reporting directly to the CIA Director.
    Mr. Gilmore. That is a very interesting concept. I have 
been trying to analyze that as I have thought about it and I am 
aware of the Senate's concern about it.
    I believe that the commission's feeling would be that we 
strongly approve of the separation of the CIA's function and to 
not try to turn them into a domestic intelligence gathering 
organization. I do not know though that the reporting to the 
Director of Central Intelligence, who I think at the inception 
of his position was designed to be a gatherer of information in 
one place, would necessarily cross that line. Just because the 
Director of Central Intelligence is aware or is in a 
supervisory capacity for the fusion center does not necessarily 
mean that would then implicate the CIA with activities within 
the homeland.
    But there is, of course, this outstanding issue of how do 
you gather counterintelligence information in the homeland. But 
I do not think there is any proposal that the CIA should cross 
that line, but I do not think that reporting to the Director of 
Central Intelligence would cross that line.
    Chairman Collins. Thank you.
    Senator Rudman, you are very familiar with the Counter 
Terrorist Center that already exists within the CIA, and 
indeed, last year at a hearing Director Tenet described the 
Counter Terrorist Center as being created to ``enable the 
fusion of all sources of information in a single action-
oriented unit.'' Do you see the President's proposal for a 
Terrorist Threat Integration Center as duplicating the work 
that is already being done at the Counter Terrorist Center at 
the CIA, or do you see it as adding value and an improvement 
over what we have?
    Mr. Rudman. Madam Chairman, I think it is a broadening of 
that concept by bringing more people into it in larger numbers. 
That is essentially, as I understand it, unless it has changed 
in the last year, FBI, CIA, and a few other people. This 
involves a lot more than that. This involves those two agencies 
plus a number of other places such as State, such as all of the 
DOD agencies which are not all contained there now. So I think 
it is a broadening.
    My understanding is that they are going to try to co-locate 
that with this new TTIC. That is my understanding, because they 
believe that the functions will be complementary. I agree with 
Governor Gilmore when he said that they are working their way 
through to find out how this will finally look. It well may be 
that a year or two from now you might want to create a whole 
separate unit.
    I think right now the administration feels, because of the 
criticality of the information we are trying to put together, 
that we ought to take the corporate model and have a joint 
venture, or if you will, take the model of DOD when they have 
got an action that is going to take place in a place that 
requires Army, Navy, Marine Corps, and Air Force and put 
together a joint task force to accomplish a particular mission. 
I think that is the concept here. So, no, I do not think it is 
a duplication. I think it is a broadening and probably an 
improvement.
    I want to make just one comment that is kind of tangential 
to your question. I understand the Gilmore Commission's 
position. It is a terrific report and I have followed their 
work very closely. I think you have got to think long and hard 
when you start separating collection from analysis. That's the 
problem I had with their proposal. There have been debates 
within the Gilmore Commission about that. I do not know how Jim 
personally feels about that, but as we go down the line here we 
know that the TTIC will do no collection. We know collection 
will stay exactly where it is now.
    The question then becomes, if you were to legislate and 
create a separate unit with a Cabinet-confirmed officer for a 
national threat integration department, the problem I have with 
that is, and knowing this government as I know it, at that 
point they are separated from the people who do their 
collection. I just wonder, knowing what we know over the last 
20 years, how much attention the FBI and the CIA pay to people, 
who even though they are mandated by law to do a particular 
job, are not part of their own team. The advantage of the joint 
venture is that you have got everyone there in line authority 
to the people who run the key agency.
    So it is an interesting proposal. I think you would have to 
give a lot of thought to separating collection.
    I also agree totally, we ought not to change the law upon 
the CIA's authority and its lack of authority in terms of 
collecting against U.S. citizens. We ought to keep that just 
the way it is.
    Chairman Collins. Thank you, both. We are doing 6-minute 
rounds and my time has expired so I will call on Senator 
Lieberman.
    Senator Lieberman. Thank you, Madam Chairman. Thanks again 
to both of you.
    Let me read you both a statement from the New York Times 
which I believe was on the day after the President made this 
proposal. The Times article quoted an unnamed administration 
official as stating that while the information sharing between 
the FBI, CIA, and other intelligence agencies has gotten 
better--and here is the quote--``it has been by brute force.''
    You both have had some experience in this and maybe the 
first question seems like a naive one but I think we ought to 
put it on the table. What is the problem here? Why do the 
intelligence and law enforcement communities have trouble 
cooperating in something so critical? And apparently even still 
after the horror of September 11, why do we need brute force to 
get them to do it?
    I hesitate to repeat rumors you read in the media but one 
of the news magazines published a story that the original plan 
for the Terrorism Threat Integration Center was to announce 
that there would be co-location of FBI and CIA personnel, 
apparently out at Langley. And then both objected. So for now 
that has been--I do not know if that is true--held in abeyance. 
But talk to us a little bit about the human--not the human 
intelligence but the human problems, the cultural problems that 
we face to get this job done, because it is so critical. 
Senator Rudman.
    Mr. Rudman. That is an excellent question, Senator 
Lieberman, and the answer is fairly complicated. Let me say 
what it is not. I do not believe from my experience, now which 
goes over a 20-year period dealing very intimately with these 
two groups of people, that this is a matter of obstinacy or 
stubbornness or turf. I think these people are patriotic, hard-
working Americans who are trying to get their job done.
    Senator Lieberman. Agreed.
    Mr. Rudman. So I do not think that they are saying, I am 
not going to share this with the FBI because I won't get credit 
for it or vice versa.
    I think the problem is far more significant, and no one has 
yet figured out how to deal with it, although I think this new 
agency, this joint venture if you will, might help.
    The FBI and the CIA have total different missions. Until 
September 11, if you were to do a pie chart of the 
responsibilities of the FBI you would have a narrow sliver that 
would be counterterrorism or counterespionage, which they did 
very well during World War II. The big part of it would be law 
enforcement. Several thousand statutes comprise the U.S. 
criminal code, passed by this Congress, and the FBI is the 
primary enforcer of those laws. So their mission, in their own 
minds until that date was to investigate, go before grand 
juries with U.S. Attorneys, get indictments, and help in 
prosecution. When you look at all the corporate scandal over 
the last 2 years, who is it that is doing all the 
investigating? It is the FBI, and well they should. So that is 
their mindset.
    The CIA, on the other hand, has a far different mindset. 
Their mindset is, even if they are aware of crimes being 
committed, their job is not to go out and ``prevent crime in 
the short-term.'' Sometimes that would be counterproductive to 
getting the kind of the intelligence you want by connecting the 
dots, if you will, and connecting the people. So the agency 
would prefer to take a lot of time to get off the information 
to help protect infrastructure and people, whereas the FBI as 
soon as they have got enough information they want to go to a 
grand jury and get an indictment. So that is a very basic 
difference.
    Now I think equally important, part of the problem has been 
the inability of these two agencies, which I have personal 
knowledge of, to share information. My point being that if the 
information is in drawer A at the FBI and drawer B at the CIA 
and information ought to come together, the information 
technology has not allowed it to come together. With all due 
respect, I would say to the Chairman that although I fully 
agree there were oversights, I would like someone to go back 
and look at the reporting for the month before and the month--
for 2 months before, 60-days reporting on terrorism at the FBI 
and the CIA. I would be willing to hazard a guess, Madam 
Chairman, there were thousands of reports. The problem was, how 
do you pick out the right ones. I mean, 20/20 hindsight is 
great. Now we look afterwards and we say, sure, they should 
have looked at it. But what were they looking at? How much 
paper were they looking at?
    Senator Lieberman. I think this may be one of the more 
interesting activities and findings of the September 11 
commission.
    Mr. Rudman. I think it is key and I hope they will look at 
that. But I would answer your collective question that if 
anything will help, this will help. They will all be together. 
They will be sharing the same information from their respective 
agencies. So that would be my answer.
    Senator Lieberman. Governor Gilmore, my time is running 
out. I would just like to ask you a related question based on 
your experience here which is, particularly in light of the 
proposal for the new Terrorism Threat Integration Center under 
the DCI, whether you think it is time to separate the Director 
of Central Intelligence from the Central Intelligence Agency? 
In other words, to create a separate DCI and then a separate 
head of CIA under that person? Whether that will, in any 
measure, contribute to the evenhandedness of the DCI, or the 
perception of it, which will help to bring these two 
communities together better.
    Mr. Gilmore. We know, Senator, there has been some 
suggestion of there being an intelligence czar actually set 
aside and put in the Cabinet separately. We have not, in our 
commission, addressed the issue of whether the Director of 
Central Intelligence should be separated out from the CIA. I 
think that would be a dramatic change which I do not think that 
certainly as an individual would want to recommend or that the 
commission would want to recommend.
    I do want to rifle-shot in on your question to Senator 
Rudman. You basically suggested that by brute force some of 
these people have come together. I do want to share with you 
several things. The commission has spent a lot of time on that 
topic, and we do believe that it is primarily cultural. It is 
based upon the long-standing tradition that knowledge is power. 
If you have got it, you have more influence than if you do not. 
That there is a fear of the violation of security, and in fact 
serious legal problems if there is a violation of security.
    I was asked a few moments ago what I thought the 
administration was doing and I answered that. But that is not 
the same thing as what the commission has recommended. The 
commission has recommended there be a separate agency 
established, a separate agency institutionalized in order to be 
a fusion center.
    We think also that there is good faith by all people but we 
do believe absolutely that there are turf battles and that 
there are cultural challenges back and forth between people 
fundamentally. We believe that there are cultural, historical 
difficulties that have been set up that we are trying to find 
an institutionalized way of overcoming. We think the fusion 
center is a clear way of doing that.
    Senator Lieberman. Thank you, both. Thanks, Madam Chairman.
    Chairman Collins. Thank you. Senator Sununu.
    Senator Sununu. Thank you, Madam Chairman.
    I want to talk a little bit more about the practical 
limitations, the practical hurdles in not just setting up this 
organization but overcoming some of the obstacles that Senator 
Lieberman just spoke about in getting information shared.
    I want to talk about the personnel, the practical question 
of who these people are, and where they come from. There are a 
number of different options but one is obviously to staff the 
integration center with personnel from FBI counterterrorism, 
from CIA counterterrorism. The other choice would be to have an 
independent staff that works only for the integration center 
and doesn't rotate back and forth between intelligence 
organizations and the integration center. I would like each of 
you to talk a little bit about which kind of an approach you 
think might be better: Permanent staff or a rotating staff, and 
why. Senator Rudman.
    Mr. Rudman. The current plan, of course, is to bring in 
people from their current positions at all of these agencies 
who have the analytical skills and experience to analyze data. 
Now frankly, it takes so long to get someone to know how to do 
that and to do it well that I do not think there is much 
choice. There is no other place in the government.
    Now as to the real--underlying your question is the issue 
of independence and I think that is a very interesting 
question. Over the long run, if you could evolve into a group 
of analysts who essentially resided there for their entire 
careers that would probably be, in my view, much better. But 
you cannot do that right away, but maybe over a 5- or 10-year 
period you can.
    If they are going to get this thing stood up in the next 
year to at least have some function they are going to have to 
get some fairly experienced analysts from the Bureau, from 
State, mainly from the Agency, who are used to looking at 
masses of data, correlating it, and being able to reach 
intelligence conclusions.
    Senator Sununu. You want a system though where those 
individuals, even after a long period of time, 5 or 10 years, 
at some point return back to the Bureau or to Central 
Intelligence. Does that foster a stronger relationship, or do 
you simply want them to spend their career at the integration 
center knowing full well that you have got to work to make sure 
that the ties, and relationships between the integration center 
and the collection organizations remain strong?
    Mr. Rudman. My personal view is that there is a certain 
advantage to have people come from their parent agency and go 
spend a few years doing something else at another place, or 
similar work in another place, then go back to their agency. I 
think it tends to give people a better idea--a good example 
would be the Congressional fellows you have here. I know I had 
several that spent several years up here from various agencies. 
They went back to their agency with a far better understanding 
of the U.S. Congress and we had a better understanding of what 
they did. So I think there are advantages to that.
    Senator Sununu. Governor Gilmore.
    Mr. Gilmore. The position of the commission is it should be 
a separate agency. That it should have its own analysts. They 
should be employees of the new agency and that is where their 
institution should be. There is a big challenge here, a 
cultural challenge that the commission has devoted all of its 4 
years to trying to address. This particular function that we 
are describing here, intelligence analysts on the 
counterterrorism side, has not been the historic career path in 
the FBI. This has been very influential in the thinking of the 
commission, particularly this year as it has gone on. It is a 
big challenge to try to break the institutional boundaries. To 
loan them would not be our recommendation.
    To devote them, to send them over there is our 
recommendation. The question we addressed as a practical matter 
is, how do you set something like this up on day one? How do 
you do that? You do not just do a standing start and bring in 
analysts and train them from the very beginning. You go to the 
places where the analysts exist and they have been trained, 
particularly the CIA which has made in fact its profession to 
do this work through its history. But to bring people from the 
other agencies as well, and to form them into one place, but to 
not loan them, but to make them part of that new permanent 
staff.
    Senator Sununu. Thank you. A second area that concerns me 
is a practical argument, I think a very practical one, that has 
been made against or raised as a concern when setting up new 
intelligence organizations, but also a concern that has been 
put forward when the question of sharing information comes up. 
Senator Rudman, you talked about the two drawers, information 
systems. You need a system or a process, whether it is 
technology-based or not, to actually get people to share that 
information.
    But in some cases there is an argument raised, we are 
concerned about providing this package of information to 
another independent group because they may then go out and 
compromise methods or sources, or share that information with 
someone that we as a different organization might not want them 
to share. They might provide it to local law enforcement when 
that is not really an appropriate consumer of this information. 
That can be willful. You can have organizations that are prone 
to leaks. But it could also be a lack of understanding of the 
sensitivities.
    My question is, in your experience where do those problems 
most often occur, are they well-founded, and are there 
different parts of an organization that are more likely to leak 
information, unfortunately willfully, or simply misapply 
information or share information with the wrong customer? Where 
might those problems occur in the chain?
    Mr. Rudman. The major problem on information sharing over 
the years has been the Bureau's deep concern that criminal 
investigations would be compromised by furnishing information 
outside of the Bureau. And the CIA's great concern, that by 
sharing information with the Bureau it might get somehow into 
hands inadvertently that would compromise sources and methods. 
So there have been cultural reasons. When Jim uses the word 
cultural, I agree, but the culture has got some basis in 
reality. These are people that have been burned on a number of 
occasions.
    Now you did something here in the Congress that I thought 
was very good last year in the USA Patriot Act. As you probably 
recall, the CIA was barred until very recently from keeping 
files on Americans. Not only could they not collect on American 
citizens, they could not even have access to the information on 
Americans. That, thankfully, has been changed. That might have 
been fine 30 or 40 years ago but it is not fine now. So now at 
least people have access to the same kind of information--this 
is on terrorism I am speaking of. But I think the cultures, as 
Governor Gilmore points out, they have prevented it. But there 
has been a basis for it.
    My problem with the fusion, and we have a friendly 
disagreement on this, my problem with that is how in the devil 
are they going to get the FBI and the CIA to give them all the 
information they ought to be giving them when they are not part 
of the same organization? You are talking about, I think, a 
very steep hill to climb.
    Senator Sununu. I see that my time is up but Governor 
Gilmore if you want to address the same question, and again in 
particular how we set up this organization so that the concern 
of the FBI about compromising criminal investigations and the 
concern of the CIA regarding sources and methods are best 
addressed?
    Mr. Gilmore. Warren is right in his analysis of what the 
concerns of the FBI and the CIA have been over the years and 
remain, in my judgment, to this day. The fusion center is 
something new. It is a new device. There is today no formal 
coordination body in existence. There are efforts between the 
different agencies to find some vehicle by which they share--
they sit in each other's meetings and so on like that.
    This is an effort though to break through some of these 
bureaucratic boundaries, create a fusion center, and now I want 
to come to the main things here. You have got to write the 
rules. The rules have to be defined. Everybody has to 
understand what the rules of the game are. And then you have to 
hold people accountable for whether they are going to do it or 
not. There is going to have to be an understanding that 
information of this type of sensitive nature is going to have 
to be shared. If it is not shared, then there should be 
penalties connected with the non-sharing. And if it does not 
share and then information does not get fused and as a result 
Americans are injured, then there must be penalties or 
sanctions connected with all that. The rules have got to be 
written.
    And furthermore, we have not even talked about the major 
barrier, and that is the supreme and total distrust of the 
Federal Government authorities for the States and locals. The 
idea of sharing sensitive information with a police chief of a 
major jurisdiction or the governor of a State is anathema. It 
has to be broken through. So far efforts are being made to do 
that. Progress is being made, but they are trying to break a 
cultural barrier and it is going to require dramatic leadership 
at the Executive and Congressional level to make that happen.
    Mr. Rudman. Madam Chairman, I want to add, I agree with 
Governor Gilmore. One of the things that I would look at if I 
were still on this Committee, I know the administration said 
lawyers from Justice and the CIA and DOD have all looked at all 
of the statutes and say that everything is OK, this will work. 
I would want to maybe have a very intensive study done of all 
of the statutes that involve the CIA and the FBI on privacy 
issues, on sharing issues and other issues, to make sure that 
this new center operates under not only the rules, which will 
be written, but the laws that exist.
    Now it may well be that they are right, that they do not 
have a problem with the current laws, but I surely would want 
to take another look at that.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman, and to my 
friend. Senator Rudman said old friend. I would say friend of 
long-standing because the rest is apparent. It's nice to see 
Governor Gilmore here. We met on TV a couple of times, had some 
fun.
    Senator Rudman comes with a remarkable record of confidence 
building and leadership from his years in the Senate. 
Universally respected and sought after by Senators regardless 
of party. The work that you did on your budget initiative 
helped us finally get to a point where we had a balanced budget 
in 1999.
    Mr. Rudman. For a little while anyway.
    Senator Lautenberg. A little while felt awful good, but 
that is what happens at times. When you sit down and you have a 
meal, it feels good and you know later on, maybe we should not 
have quite done it that way. But it is a pleasure to see you 
here, both of you, having left office formally and being called 
upon.
    Now I was never called upon to add my service so I decided 
I better run again and here I am, and glad to be here and to 
try and help solve some of the problems that we are having. The 
enormity of problems has grown in these couple years and I do 
not think it has anything to do with my departure from regular 
service, but the fact is that matters and life have become far 
more complicated. The horrible benchmark of September 11 has 
left a permanent impact almost no matter what we do.
    I wonder, Senator Rudman talked about, described a joint 
venture. When I was a CEO of a pretty good-sized company I 
liked joint ventures as long as we owned the joint. I think we 
have somewhat that problem here in government. To me, the best 
way to get an understanding of effective participation with an 
agency is the simplest way. I think you have talked about it, 
Governor. The fact is that you have to reach into these sources 
of trained people. Frankly, I would have hoped that between the 
FBI and the CIA that a task force of sorts could have been 
created with the authorities as delineated, to get the job 
done. Because one of the things that seems to be happening is 
we are adding--I do not want to sound critical, but we are 
adding acronyms because we are adding organizations and yet we 
still have that feeling of discomfort.
    I can tell you this, that the kaleidoscope of color that we 
use to warn people is just scaring the hell out of a lot of 
people. And yet we have an obligation to say, life is not 
exactly as it was and you have to be especially careful. But 
that muddle of things really worries me because there is no 
confidence yet.
    I respect the President's initiative here, and to think 
that this problem could be solved immediately and create this 
giant department, jurisdictions overlapping all of that kind of 
thing. I am very involved with the Coast Guard and I was on 
Intelligence after Senator Rudman left, and Defense 
Subcommittee on Appropriations. There is conscientious 
leadership there, but the fact of the matter is that to have 
this large safety net with the holes in it that we ultimately 
saw is a shocking thing. We cannot go back retroactively to 
pre-September 11 and say, should have, could have, would have, 
I think that is a dangerous and insignificant review.
    But where we are now, still with people wondering who is 
where--the fact is that I hear from local law enforcement 
people, they are groping for information, searching for ways to 
be included in the loop. That has got to be a large part of the 
solution to the problem. That is to be able to get this data 
out to the communities out to the States so that they feel like 
they can do something significant if an alert does come.
    So I supported the idea of the integration center, the 
fusion as you call it, Governor Gilmore, center where the data 
are collected in one place. But I for the life of me still have 
a problem trying to figure why we cannot, within the existing 
structure, create the mechanism to solve the problem. Should 
this be a direct NSA report or something like that? How does it 
get to the President? Does the President have at his daily 
briefings a review of terrorist activity? Or is it immersed in 
this whole melange of things that he has to be concerned about?
    So I am not offering much by way of advice except to say 
that if we could only get this housed, done within the 
structure that we have, trained people, people who have 
knowledge and have a place out gathering data, and do it that 
way instead of creating a whole new structure because we cannot 
get through the bureaucracy.
    [The prepared statement of Senator Lautenberg follows:]

                PREPARED STATEMENT OF SENATOR LAUTENBERG

    Madam Chairman, I'm glad you recognize the importance of holding a 
hearing on the ``Terrorist Threat Integration Center'' (TTIC) the 
President has proposed.
    Let me first welcome and thank the witnesses for coming today, and 
giving us the benefit of their expertise on this issue. Senator Rudman 
and Governor Gilmore have provided a great service to the nation. Their 
efforts to identify and alert us to terrorist threats and provide 
solutions to the vexing problem of defending ourselves from terrorist 
attacks are much appreciated.
    Jeff Smith and James Steinberg have wide experience in dealing with 
our national security agencies and I look forward to hearing their 
insights on what this new Terrorist Threat Integration Center's role 
should be.
    Madam Chairman, I'm disappointed the administration did not send a 
representative to inform us about its plans for this new Center. We 
need clarity and leadership from the administration on this question 
and, with all due respect to the President and Governor Ridge, we are 
not getting it.
    What do I mean by this?
    In the wake of September 11, it rapidly became apparent that an 
inability or an unwillingness of the intelligence community to share 
information played a role in our inability to prevent the attacks.
    There was a reality that there wasn't any single agency responsible 
for gathering, analyzing, and disseminating the information in a way to 
prevent and counter terrorist attacks.
    Many felt the creation of the Homeland Security Department would 
solve this problem. The notion was that the President would be briefed 
on potential terrorist attacks by the Secretary of the Homeland 
Security Department.
    Well, we have created the Homeland Security Department. But we 
still have the CIA's Counter-Terrorism Center. We have the FBI 
improving its intelligence capability. And now we have this new 
Terrorist Threat Integration Center.
    I think that the responsibility for determining the terrorist 
intelligence picture is becoming murkier, not clearer. Rather than 
reducing the number of agencies and bureaucracies with responsibility 
for this problem, they are proliferating: CIA, FBI, CTC, DHS, TTIC, 
etc. and so on.
    We are not ``connecting the dots,'' we are multiplying them.
    I must also express some wonderment about how this whole process is 
unfolding. This new Center has been created by the President outside 
the Homeland Security law. It would have seemed more logical for the 
President just to create this Center or something similar within a 
short period following September 11. If this has been an urgent 
problem, why did we wait for well over a year to create it? If the only 
question involving improving our intelligence processes was to beef up 
the CIA's ability to do so, which could have been done shortly after 
the September 11 attacks, why did we go through all the trouble and 
disruption of creating a new Department of Homeland Security?
    Between the proliferating number of agencies and the kaleidoscopic 
color scheme of threats, I worry that we are spreading fear and near 
panic in the country without materially advancing the protection of the 
nation from a terrorist attack or raising the comfort level of our 
citizens.
    We now have the Homeland Security Department and the TTIC. Since I 
doubt we will dis-establish either, we must find a way to make them 
work together.
    I look forward to hearing from these distinguished witnesses. I 
hope they will be able to indicate to us that things are getting better 
on this front--and, if they are not getting better, what can we do to 
improve the situation.
    Thank you, Madam Chairman.

    Mr. Rudman. Senator Lautenberg, let me just respond this 
way. I think that is what the administration is attempting to 
do. Now people may disagree with the form, but what they are 
essentially doing is saying we have had analysis of terrorism 
within the FBI, we have got analysis within the CIA. Most of 
the information that we get is foreign so the CIA is tasked 
with evaluating it and doing the analysis. But we have got all 
these other parts of the government that pick up bits and 
pieces, so rather than try to exhort people within the current 
boxes to do what they are doing, put together a joint venture, 
if you will, and have it report to the Director of the CIA, 
which answers your question, how does the President get 
informed? That is how he gets informed. He meets with the 
Director of the CIA, I am sure you know, mostly every day. This 
will be a major part of his reporting.
    Now under Governor Gilmore's plan it would certainly work. 
The difference would be that the director of that fusion center 
would have a separate reporting line to the President. We do 
not have to argue that here, but the concept--the only 
difference between the two ideas is one is independent and one 
is not. The basic reasoning and the need we all agree on. The 
administration has chosen to do it in a so-called joint 
venture. My view is that it is better to do that way than to 
try to do it within the current structure of the CIA and the 
current structure of the FBI, to try to move all of the people 
dealing with domestic terrorism based on foreign and domestic 
intelligence into one place. That is what the fusion center 
proposal was, so we do not really disagree on the need. We only 
disagree about the modality.
    From your comments, I would think you would probably oppose 
the creation of a new department. That is their proposal, and 
it is a very sound proposal. But there is room for reasonable 
people to disagree.
    Mr. Gilmore. A new agency. We did not even recommend the 
Department of Homeland Security.
    But with respect to, I think the answer that I would want 
to provide to you, Senator is this. You have got to identify 
the problem. We have taken a lot of time to try to think 
through what the problem is, under no pressure from anyone. We 
have tried to think about this. The problem is that you just 
cannot find a vehicle in the present structure of government in 
our Federal system that is in a position to gather together 
Federal overseas information, domestic information, human 
intelligence, signal intelligence, State, locals, private 
people, private enterprise. There just is no vehicle for that. 
There is a vehicle for intelligence to be gathered and the 
President certainly receives his daily briefing every morning. 
There is no doubt about that.
    But then as you analyze the problem that we saw in the 
past, it is not only that there is no vehicle for gathering up 
all that information, but that there are institutional and 
cultural barriers to the complete sharing. This is designed to 
be a vehicle to overcome those problems. It does not solve all 
problems, and it even creates new ones with additional 
bureaucracies. But this is the best solution that we can come 
up with balancing all the different pressures.
    Senator Lautenberg. I thank you both. Madam Chairman, we 
are developing our mandate here, and that is, as you said, 
write the rules and decide how it ought to be. This is a very 
helpful discourse and I thank you.
    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Madam Chairman, thank you. I want the record 
to reflect that my father never ran against Senator Rudman. I 
am glad he did not. He is glad he did not, but he does send his 
greetings. It is good to see you again.
    Mr. Rudman. Thank you very much. I appreciate it.
    Senator Pryor. Let me ask both of you a couple of big 
picture questions. How many employees are we talking about 
being necessary once the Center is fully operational?
    Mr. Rudman. I think it is a better question when you have 
the administration witnesses. My understanding is it is going 
to be started in phase one with probably under 100, mainly 
analytical. They will stage it on the basis, if you grow it too 
fast it will not grow as efficiently as it should. My sense is 
you are talking hundreds rather than thousands when they 
finally get to the final stage of where they want to get, which 
on my information is probably 3 to 4 years out.
    Senator Pryor. Do you agree with that, Governor?
    Mr. Gilmore. Our commission has attempted to lay out what 
we think the issues are, the challenges are, and the best 
solution. To then place ourselves of the administrative people 
who would design the specific number of hirees to do the job, 
we have not presumed to do. So the short answer is that we 
believe there needs to be a fusion center to gather this 
information together, and I am sure that the appropriate 
Executive Branch people who would come forward with a proposal 
to the Congress would lay out how many people they think they 
need to get the job done.
    Senator Pryor. Will this joint venture have its own budget 
or will the personnel, location, and overhead, be absorbed in 
other agencies' budgets?
    Mr. Gilmore. We recommend that it has its own budget in 
order to continue to provide that type of independence, 
Senator. But the question of how you would actually fund it is 
an appropriations issue; a proposal from the Executive Branch 
and an appropriations issue from the Senate. We would not be 
surprised if you were to move funding for the analysis function 
from the different agencies into the new agency in order to 
begin its funding. But since it is an independent agency we 
believe it should have its independent appropriation.
    Mr. Rudman. Senator Pryor, the administration's proposal as 
I understand it does not require a separate budget because it 
is not doing what the Gilmore Commission has recommended with 
an agency. It is essentially going to take people who are 
currently on the payroll of these various other agencies, co-
locate them in one place, and make contributions to overhead.
    Now as a practical matter, although many of them will be 
moving to a different location doing the same job and getting 
paid the same amount of money, inevitably there will be more 
money involved and I assume that will appear in the budget for 
the respective agencies who will make a contribution. That is 
the way the appropriation process normally works.
    Mr. Gilmore. It does however raise an issue. If you co-
locate people in that manner one might ask the analyst who he 
works for. I think his answer would be what everybody in the 
world would answer, the guy who writes my paycheck is my boss. 
Therefore, the fusion center will really not have employees 
under this proposal. That will create a management challenge, 
but I believe that there is a sense that once identified that 
the heads of the CIA and the FBI will be in a position to 
provide that management. But I think I have identified the 
management challenge to you.
    Senator Pryor. I agree, I think it is a challenge. However, 
I think we can overcome it. It seems like something we can work 
through and work out and come up with a very positive 
management structure and accomplish the mission.
    I am aware you have a joint venture here where the 
employees come from different agencies. I am assuming that the 
creation of this center does not relieve the other agencies 
from doing their own analysis and making their own 
determinations. In other words, they do not cede their 
responsibility to this new joint venture. But it is a little 
bit redundant, and redundancy in this case may not be a bad 
idea because theoretically this new center may be in a superior 
position to analyze data coming from a lot of different 
sources. Is that the way you understand it, Governor?
    Mr. Gilmore. That is a very complicated point. It could 
create redundancies. I think that the sense of our commission 
is that the primary function for this type of analysis ought to 
rest in the fusion center. Now I guess that administratively it 
probably does not make sense to deprive the individual agencies 
of all ability to analyze information, otherwise how do they 
know what to give, and how do they know how to understand what 
they are getting. So I think I see that administrative point 
and I think that we would concur with that.
    But I think we should guard against co-locating equal 
amounts of analysis capacity in both places because then the 
individual agencies I think would have a tendency to say, who 
needs that?
    Mr. Rudman. Senator Pryor, that gets back to the Chairman's 
position on duplication. My sense is that, although obviously 
both the Bureau and the Agency will retain some analytical 
ability in the area of terrorism, I think the overwhelming 
amount of analysis is going to be done at this new joint 
venture, whether it be a joint venture or whether it be a 
fusion center. It just seems to me that is what is going to 
happen, because you do not have, unfortunately, that many 
people who are all that well-trained in this area. You are 
going to have to take a lot of them over the next several years 
and move them into this new co-located position.
    Now you have a practical matter, knowing the way these 
places work, since the collection is coming through the eyes 
and ears of either the CIA or the FBI, it would be to me almost 
incredible if that would not be looked at, put in a sealed 
envelope and sent across the city electronically or otherwise. 
Obviously, people are going to be aware of it and contribute 
some analysis to it.
    But that is not really your question. Your question is, is 
there going to be major analytical capability still at these 
places? I would hope not because then you get into duplication 
and then you get into some competition. I would hope this would 
be the place where the threat of terrorism and all intelligence 
thereto is analyzed.
    Mr. Gilmore. Madam Chairman, may I add a point on that?
    Chairman Collins. Certainly.
    Mr. Gilmore. Because I want to address this issue of 
duplication which has emerged. I think that it is important to 
keep your eye on the ball. Focus on the issue. The issue is, 
what is the problem here? How do we share information? How do 
we get this information co-located in such a way that we share 
the dots. So that something significant from CIA combined with 
something from FBI suddenly has meaning where in the two pieces 
it may not. That is the issue.
    The fusion center, the President's proposal, all these 
things are very much the same proposal. It is just a matter of 
administratively how you are going to shape it. They are 
intended to address that issue. Therefore, the question is does 
duplication become a disqualification of the solution? It does 
not. It merely becomes a challenge that has to be worked 
through and minimized.
    Senator Pryor. I agree with you. I can live with some 
duplication if we accomplish the goal we are setting out to 
accomplish. The question is always how to do it in the most 
efficiently, and effectively manor possible. That is a 
challenge that we all wrestle with here every day and I know 
you will too.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you, very much, Madam Chairman. I 
thank you for this opportunity and I welcome Senator Rudman and 
Governor Gilmore. Senator Rudman, I knew you when I was in the 
House, and I know of your work in the Senate and you have 
really served our country well as a Senator, and even after the 
Senate.
    My concerns have been that we may have too many centers. 
The President in his State of the Union speech did add a new 
key component though which he called a Terrorist Threat 
Integration Center. I can see his intent there, and especially 
when we think that we have many centers. Yesterday I met with 
Dr. Cambone. He was nominated to a new position in the Defense 
Department and that position is undersecretary of intelligence. 
Now here is another effort in facing the threats of our 
country, not only domestic but foreign threats. So my concern 
is there may be too many centers trying to do the same thing.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA
    Thank you Madam Chairman for organizing today's hearing. I am 
pleased that the Committee is continuing to focus on critical issues 
relating to our national security.
    I am disappointed that the administration could not be with us 
today. The President's proposal to establish a Terrorist Threat 
Integration Center was one of the key components of his State of the 
Union address and the administration has issued several briefing papers 
on the concept.
    Yesterday I had the opportunity to meet with Dr. Steve Cambone who 
has been nominated to the Defense Department position of Undersecretary 
for Intelligence. This is a new position at Defense is one of many 
additional efforts underway to improve intelligence management.
    I am concerned that there may be too many centers being created to 
respond to the same threat. For example, the CIA has its Counter 
Terrorism Center--the Defense Intelligence Agency has its counter 
terrorism center--the new Department of Homeland Security will have an 
Information Analysis and Infrastructure Protection Directorate--the 
Army has an Information Dominance Center--DOD is developing a Total 
Information Awareness program--and the FBI has a Counter Terrorism 
Division. Now the President proposes a new Terrorist Threat Integration 
Center.
    When this Committee marked up the Homeland Security bill, I worked 
with Senators Lieberman, Levin, and Thompson to craft an intelligence 
division to ensure the Department received sufficient information 
concerning domestic threats and had the capability of responding to 
those threats. Unfortunately, that proposal was later rejected by the 
administration. My concern then--and now--was that there would be 
duplication of effort in the intelligence arena.
    There can be only so many cooks in a kitchen.I think we have 
already reached our limit when it comes to analyzing intelligence 
information. We have a limited number of qualified intelligence 
analysts and a limited number of agents in the field developing 
information. Creating numerous centers in Washington--all looking at 
the same information--does not mean we will be better prepared for 
countering terrorist threats.
    We have an esteemed group of experts this morning, including our 
former colleague, Senator Rudman. I look forward to their comments on 
this subject and I commend our Chairman for holding this hearing.

    Senator Akaka. Under the administration's plan, and I would 
like to direct this to the Governor, the Director of the CIA 
will inform the President about threats, but who is responsible 
for ensuring domestic investigation of threats that take place, 
and State and local enforcement are kept in the picture? 
Governor Gilmore, am I correct in thinking there is currently a 
disconnect?
    Mr. Gilmore. Yes, Senator, there is a disconnect. I think 
that most people have understood that since September 11 as 
they have tried to analyze the problem and are trying to find 
ways to address that.
    Just to touch on your Department of Defense comment just as 
a potential for more and more centers trying to do the same 
thing. It certainly is contemplated, I think, that this fusion 
center, this integration center, or however it is defined or 
structured would include people from the Defense Intelligence 
Agency, from the Department of Defense as well as from the CIA 
and the FBI and hopefully a place also for State and local 
people. It is a desire to begin to combine things in a way that 
structurally we have never done before.
    I might point out, by the way, that I have spoken to some 
leaders in law enforcement from some of the major 
municipalities of the country and they have indicated that the 
FBI's Joint Terrorism Task Forces are doing some more of that 
communication and that they do feel like they are having an 
opportunity to work on the same team with that program. So that 
seems to be a program that is making some progress in terms of 
the collection efforts, in terms of the team for gathering 
information.
    But at the end of the day I think there is a near virtual 
consensus everywhere that there needs to be some type of 
integration center or fusion center so that everybody has a 
centrally located place to learn all the information gathered 
from all the disparate areas as you have described.
    Senator Akaka. Senator Rudman, I know because of your 
background and experience as a Senator and your participation 
in security matters as well, I ask for your assessment and also 
your thinking about--and if you can explain to me what you know 
about the Terrorist Threat Integration Center that the 
President is proposing and whether that would answer my 
question, which officially is in charge of bringing together 
all foreign intelligence concerning threats inside the United 
States and the domestic law enforcement information about 
domestic threats and ensuring first that this information is 
thoroughly evaluated and that a timely investigation takes 
place?
    And second, who ensures that local officials who might be 
affected by a threat are kept in the picture? I am hoping that 
the President's proposal on integration will bring that about. 
I was thinking of it in terms of the interagency coordinating 
group that would do this. Can you give me your views on that?
    Mr. Rudman. I will, Senator Akaka. Thank you for your 
gracious comments. I enjoyed our service together.
    Let me tell you that I do not think that I necessarily know 
the answer to that and I think that is a better question for 
the administration witnesses. But I think I know what the 
answer will probably be, so on that basis I will tell you what 
I believe the answer is but I just do not know for certain.
    I am sure that this new threat analysis center will carry 
out the function that you are speaking of. I think theirs is 
purely analysis. The question then becomes, what happens to 
their product? Let us assume that their product produces a 
specific threat to Honolulu. The question is, how does the 
chief of police of Honolulu and the Governor of Hawaii get to 
know this information? That is really your question.
    I think there are two answers to that question, or at least 
there should be. It is, I believe, now the primary 
responsibility of the FBI and the Department of Homeland 
Security to coordinate with local communities to make sure that 
the kind of information they have not been getting they will be 
getting.
    It is my understanding that there is currently a program 
underway in which the police authorities of major cities are 
getting Federal security clearances, which is a very unique new 
program. It is not a classified program. It is known. It was 
spoken about publicly at a meeting I was at yesterday. So that 
there is more ease of passing on that information to people.
    For instance, it is hard to believe that when Governor 
Gilmore was Governor of Virginia it would have been a Federal 
crime for an agent to share certain classified information with 
him because he did not have the clearance. Now it certainly 
seems to me that the mayor and the chief of police of New York 
ought to be able to get classified information. So I think they 
are working in that direction but not through this center. I 
think those questions are better directed at the FBI and 
Governor Ridge to see if they are upping their efforts to get 
clearances and find ways----
    And finally let me say just one other thing that was 
inherently contained in your question. I have long believed 
that the balance between protecting sources and methods and 
protecting the American people from great harm has to be 
rationalized in some way. Where I come out on it is simply 
this. I believe that if we have a specific threat, as opposed 
to what we have right now, a specific threat based on good 
information of a major terrorist action against a particular 
city during a particular time frame, that sources and methods 
ought to be compromised if necessary to protect that population 
from that injury. That is a debate you will have to have within 
the community.
    Senator Akaka. Governor Gilmore.
    Mr. Gilmore. Senator, if I may just add, in my discussions 
with Admiral Abbott he has indicated that they in fact are 
starting a program where they are beginning to go through the 
process of clearing the governors and clearing of major law 
enforcement key personnel in the respective States. Then you 
begin to put in all the safeguarding rules, all the penalties 
for violation of that, all of the training that goes along with 
that. I think that it can work and should work.
    I think that if a politician in a State, the same thing as 
a politician at the Federal level--politicians are politicians, 
if they reveal information in order to gain some type of 
political advantage and so on, there ought to be penalties 
involved with that. I think once you set up this kind of 
structure then everybody is going to understand what the rules 
are and how they are supposed to adhere to them.
    Senator Akaka. Thank you so much for your responses. Thank 
you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    Before I let this distinguished panel go I just want to 
follow up on the issue of how the new center would interact 
with State and local law enforcement officials, which both of 
you have talked about as well as several of the members of this 
panel. Recently in Portland, Maine, for example, the local 
police detained a foreign national who was visiting on a 
tourist visa who was spotted photographing an oil tank farm on 
the Portland waterfront, obviously an action of some concern. 
The local police, however, had an extremely difficult time 
getting information from the FBI about whether or not this 
individual was on any watch list or if his actions were a 
matter of concern. So I think we still have long ways to go as 
far as information sharing and developing the trust among 
various agencies at various levels of government.
    Do you think that State and local law enforcement officials 
should have direct access to this new center or a way to 
somehow tap into information directly? Senator Rudman.
    Mr. Rudman. I do not, Senator Collins. I think that the 
nature of the information they will be having to compile, their 
analysis product based on foreign and domestic intelligence, 
cannot be shared on a demand basis. What I do believe is what 
you intended in the Department of Homeland Security 
legislation. I believe that DHS primarily is going to become 
responsible for liaison, both information technology and 
verbally, with local law enforcement. I believe that they ought 
to be on the front line, and I expect they will have people in 
this new center who can pass on to the chief of police of 
Portland, Maine that this person is on a watch list and do it 
in real time.
    But I think that is the way it ought to be done. I think 
you have got to limit access to this product. Not limit access 
to those who need it, but limit general access to it. Then you 
get into some issues that I think would cause a lot of 
problems.
    Chairman Collins. Governor Gilmore.
    Mr. Gilmore. If I understand Senator Rudman, I think that 
our commission would disagree. We believe that there ought to 
be co-located people, representative people from States and 
local organizations to begin to understand the nature of what 
is going on in the States. There is a serious cultural problem 
here. We identified it years ago. It remains to this day. It is 
the inherent feeling of Federal law enforcement authorities 
that they are superior.
    The reason that they think they are superior is because 
they are better funded by the Congress than local law 
enforcement agencies are able to be. They have, therefore, 
access to more people and more resources. Therefore they think 
they are superior.
    But that is balanced by the fact that local law enforcement 
people are in more places, seeing more things across this 
Nation each and every day. Therefore, the Federal authorities 
are not superior. They are just different. Therefore, 
culturally, things have got to work out in a way that can 
harmonize these two things together. I think the recommendation 
of our commission would be that the fusion center creates a 
vehicle for the gathering together of all the different 
organizations. There even should be some facility or some 
ability to have an open channel of communication with private 
enterprise.
    Chairman Collins. I want to thank both of you very much for 
your testimony this morning. Both of you have been extremely 
generous with your time and your experience and we very much 
appreciate your appearing this morning. So thank you, both.
    I now would like to call forth our second panel of 
witnesses this morning. James Steinberg is the vice president 
and director of foreign policy studies at the Brookings 
Institution. He served as deputy national security adviser in 
the Clinton Administration as well as director of policy 
planning staff and deputy assistant secretary for the Bureau of 
Intelligence and Research at the Department of State.
    Jeffrey Smith is a formal general counsel of the CIA and 
formal general counsel of the Senate Armed Services Committee 
under Senator Nunn. He is now a partner at Arnold and Porter.
    We welcome you both here this morning. We very much 
appreciate your taking the time to appear. Mr. Steinberg, we 
are going to begin with you.

TESTIMONY OF JAMES B. STEINBERG,\1\ VICE PRESIDENT AND DIRECTOR 
      OF FOREIGN POLICY STUDIES, THE BROOKINGS INSTITUTION

    Mr. Steinberg. Thank you very much, Madam Chairman. I very 
much appreciate the opportunity to be here, and I commend you 
and the Committee on having these hearings because I think this 
is one of the most critical topics that we as a Nation face. As 
you pointed out, although a number of actions have been taken 
concerning homeland security, one area that has not gotten the 
degree of attention that I think it deserves is the 
organization of our intelligence efforts, so I think this is 
very welcome.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Steinberg appears in the Appendix 
on page 95.
---------------------------------------------------------------------------
    I have a longer statement for the record and I will just 
summarize a few points for you. As you heard from the previous 
panel I think there is a general agreement that there is a need 
for greater integration of our efforts to analyze the threat 
and the nature of the challenges that we face in the area of 
counterterrorism. Where I differ from my distinguished 
colleagues who you heard from in the previous panel is that I 
believe that this effort should be focused in the Department of 
Homeland Security, and I think that is consistent with the 
intention of the Congress when it created the department, and 
particularly the Office of Intelligence Analysis and 
Infrastructure Protection.
    As you stated in your opening statement, the House and 
Senate joint inquiry into the attacks of September 11 really 
demonstrated the problem that we have in terms of bringing 
together and sharing information. I will not repeat the quote 
that you gave because I think it is exactly to the point of the 
challenge that we faced. Before I discuss the specific ways of 
how we should respond, it is important to spend a minute 
discussing the nature of the intelligence challenge that we 
face in dealing with counterterrorism, because only by 
understanding the dimensions of the problem can we develop an 
appropriate architecture or organizational structure that is 
appropriate to the task.
    The intelligence challenge in counterterrorism has four key 
components. First we need to collect timely, relevant, and in 
the best case, actionable information. Second, we need to 
collate or bring together the information from the full 
spectrum of sources. Third, we need to analyze the information; 
as others have said, connect the dots. And finally, we need to 
disseminate that information to those who need to act on it, 
policymakers, law enforcement officials, the private sector, 
and the public in a form that allows them to use that 
information to accomplish their mission.
    In the fight against terrorism these tasks are far more 
difficult in many ways than the intelligence challenge we faced 
during the Cold War. Today, terrorists threaten us at home and 
abroad. As Senator Rudman observed, they have no fixed 
addresses and we only occasionally know their identities or 
their targets. Technology and globalization have made it easier 
for would-be terrorists to bring dangerous people and weapons 
into the United States, and to conceal their activities.
    Key information that we need to detect and prevent 
terrorist attacks lie in the private sector, at airlines and 
flight schools, with operators of chemical plants, and high-
rise buildings, with local police and community doctors, and we 
must increasingly count on the private sector and State and 
local governments to take the actions necessary to prevent 
attacks or deal with their consequences. We need to adopt our 
intelligence efforts and the organization of our intelligence 
community to meet this radically different challenge.
    In your opening statement you identified a number of the 
small steps that have been taken today and these are welcome. 
But I think that is true that as many of the witnesses and the 
Members of the Committee have noticed, that there is a tendency 
to focus primarily on the role of the Federal Government in 
carrying out these tasks, but in reality we see that there are 
a wide variety of actors who are crucial: Foreign governments, 
State and local officials, business, and private citizens. They 
all have access to information that may be relevant to the 
terrorist threat. They have expertise that can help us 
transform this raw information into meaningful intelligence. 
And perhaps most important, they are the key players who need 
to act on this intelligence, to apprehend a suspect, to prepare 
public health facilities in the event of an attack, to secure 
critical infrastructures, etc.
    Now the reason I have stressed the importance of 
understanding these different functions is because they provide 
key guidance for the critical question of how we should 
organize the intelligence efforts. The necessary elements, in 
my view are, first, we need a strategy for identifying the 
kinds of information we need to collect on threats and 
vulnerabilities.
    Second, we need a network, a decentralized network designed 
to permit sharing of information among the widest possible 
group of collectors, analysts, and implementers at all levels 
of government, and between government and the private sector.
    Third, we need a focal point for bringing all the 
information together to be integrated and analyzed.
    And fourth, and I think this is extremely important, we 
need an accountable organization that assures that the right 
information is being collected and the results of collection 
and analysis are shared in a timely, usable way with those who 
need to act on it.
    Judged by these tests, the administration's proposed 
Terrorist Threat Integration Center represents a partial step 
forward in helping to build a network bringing together foreign 
and domestic intelligence collection and a place where this 
information can be integrated. But it fails to meet the other 
key tests, particularly in developing a structure that will 
increase the chances that we will collect the right information 
and that will link the collection and analysis to those who are 
responsible for taking the necessary actions to prevent 
attacks, protect our people and critical infrastructure, and 
mitigate the consequences of any attack that might take place.
    I think, therefore, in this respect that the Terrorist 
Threat Integration Center is a step backwards from the approach 
that you adopted in the Homeland Security Act of 2002 creating 
the Department of Homeland Security. Yes, we have closed the 
seam between foreign and domestic intelligence, and it does 
recognize the need to draw on broad expertise. But by placing 
the TTIC under the direction of the Director of Central 
Intelligence rather than the Secretary of Homeland Security, 
and disconnecting it from those with direct responsibility for 
safeguarding homeland security, the administration fails to 
develop an effective and integrated approach to countering the 
terrorist threat to the United States, and risks, as many of 
the members of the panel have suggested, creating more 
duplication that could harm the homeland security effort.
    After all, the Department of Homeland Security was created 
to be the hub of our homeland security efforts. Unlike any 
other official, the Secretary of Homeland Security's sole 
responsibility is to see that the necessary actions are taken 
to secure our borders, to protect critical infrastructure, to 
defend against biological, chemical, nuclear, and radiological 
attacks, and to respond to emergencies that do occur.
    Importantly, the statute specifically gives the Secretary 
responsibility for coordinating with State and local officials 
and with the private sector. So in order to carry out the 
functions that you gave him in the statute, he has got to be 
able to link the decisions about what information we collect 
and what information we share with his responsibility to take 
the necessary actions. I think that is the important difference 
between locating this effort in the Department of Homeland 
Security and making it a separate entity, whether a joint 
venture or an independent effort.
    I think the importance of this linkage is most clear in the 
case of protecting our critical infrastructures. Only by 
matching analysis of the threat against the analysis of 
vulnerabilities that the department is responsible for can we 
know how to prioritize both what intelligence we collect and 
what protective measures we must take. The synergy created by 
linking intelligence and collection analysis and operational 
responsibility can lead to better quality intelligence, more 
actionable intelligence, and greater incentives for the 
intelligence to flow to those who need it in a form that they 
can use.
    By taking these functions away from the Department of 
Homeland Security we risk having a secretary and department who 
have accountability for homeland security but no authority to 
assure it. In my judgment, this has been the consistent problem 
in dealing with threats to the homeland with responsibility 
widely dispersed throughout the Federal Government and that has 
seriously hampered our efforts.
    I think there is an important question about maintaining 
the independence of this analysis. Therefore this fusion center 
in the Department of Homeland Security should also have the 
general oversight of the Director of Central Intelligence just 
as he has oversight over the Department of Intelligence 
Research at the State Department, the Defense Intelligence 
Agency, etc.
    But along with this authority that I would give to the 
Secretary of Homeland Security there is also a responsibility 
to make sure that this information is collected consistent with 
fundamental civil liberties, because the homeland security 
challenge will rely heavily on information collected from the 
private sector, and from a wide range of domestic activities.
    Moreover, to carry out the homeland security challenge, 
vital information will need to be widely disseminated. It will 
be, therefore, all the more important to develop clear, public 
guidelines for the acquisition, retention, and dissemination of 
information, particularly personally identifiable information.
    Whether the new threat integration center is placed under 
the authority of the DCI, or as I have suggested under the 
Secretary of Homeland Security, the long-term acceptability to 
the American people of our heightened intelligence effort will 
depend on our ability to demonstrate that we are undertaking 
these new tasks with due regard for privacy and individual 
liberty. Formal guidelines subject to public comment and 
Congressional oversight, and accountable mechanisms to make 
sure those guidelines are adhered to, are essential to this 
goal.
    Thank you for the opportunity to appear today. I look 
forward to your questions.
    Chairman Collins. Thank you, Mr. Steinberg. Mr. Smith.

TESTIMONY OF JEFFREY H. SMITH,\1\ FORMER GENERAL COUNSEL (1995-
            1996), CENTRAL INTELLIGENCE AGENCY (CIA)

    Mr. Smith. Thank you, Madam Chairman, for inviting me to 
appear. As with Mr. Steinberg, I have a longer statement that I 
would like to submit for the record that I will summarize very 
quickly and we can get to questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Smith appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    This is an extremely important issues. There have been a 
lot of changes, so I think we might begin by listing a few 
principles that ought to govern the collection and analysis of 
intelligence for domestic security.
    First, there should be a unity of effort and unity of 
command.
    Second, there must be clear channels among collectors, 
analysts, operators, and consumers--the linkages that Jim spoke 
of. This has to be a two-way channel with information flowing 
up and down.
    Third, there has to be a smooth flow of information among 
other sources of information and between State, local and 
Federal officials.
    Fourth, we should avoid overlap between intelligence 
agencies. The boundaries should be clear but not impervious or 
rigid, and some competition, as Senator Pryor suggested, can be 
helpful.
    Fifth, intelligence analysts must be independent. Indeed, 
that is why the CIA was created in the first place.
    Sixth, the analysts and indeed all intelligence activities 
must be accountable to the political leadership of this country 
and to the Congress.
    Seventh, we must take all measures to protect the civil 
liberties of American citizens.
    Eighth, any organizational structure can be made to work 
even if it looks dysfunctional on paper. The keys to success, 
in my judgment, are good people, strong leadership, and 
stability. In that regard I am reminded of Norm Augustine's 
wisdom that sometimes we check on the health of a plant by 
pulling it up to look at the roots, and that is not a good 
thing.
    Finally, an analytical organization is only as good as the 
information it has to analyze. There was much criticism after 
September 11 that we had not connected the dots. The major 
problem is, we just do not have enough dots. I think a renewed 
emphasis must be placed on collecting more intelligence, 
especially human intelligence.
    Now let me turn to a few of the specifics of the 
President's proposal. It is a good idea and I support both the 
concept and the proposed implementation of it. However, I 
believe it is only a first step toward what I believe we 
ultimately need, which is a viable domestic intelligence 
service. The Department of Homeland Security clearly needs an 
intelligence function. I agree with everything that Jim has 
said about the need to have it linked to ultimately the 
responsibilities of the Secretary. However, I think for the 
moment I would leave it under the Director of Central 
Intelligence until ultimately it would be moved, in my 
judgment, to a domestic security service that would be part of 
the Department of Homeland Security.
    Indeed, as Governor Gilmore said, many people believed 
after Congress passed the homeland security bill that this 
function would be housed in the directorate of infrastructure 
security at Homeland Security. However, the President has 
decided that it ought to be under the DCI. As I understand the 
plans of the administration it is to create the TTIC as a 
fusion center that will ultimately combine the databanks of 
several agencies including the FBI. It will be a joint venture 
that will build on the strengths of the current organizations. 
People will remain employees of their agencies but will be 
secunded to this center.
    The recent changes in the Patriot Act now permit wider 
exchange of information between law enforcement and 
intelligence agencies and that should make it possible to 
permit a common database so that the chief of police in 
Portland could call this center either directly or through 
Homeland Security. But they have to have access to that 
information, you are absolutely right. And they ought to 
produce a common watch list that is available to everybody in 
the country who needs it.
    The President's desire, as I understand it, is to try to 
build on what is already working. The officers who are assigned 
to this center will be able or are encouraged to have strong 
ties back to their home agencies including, I am told, even the 
right to have access to operational traffic within their 
agency, which is a very important element.
    At the same time, there will be much confusion as the 
center is being created. The FBI has been trying to do this, 
the Department of Homeland Security has been trying to do it, 
and now we have yet a new center. There will clearly be some 
confusion and Congress needs to keep an eye on it. I 
understand, for example, in the President's budget that he has 
just submitted contains $829 million for DHS's information 
analysis and infrastructure directorate. Is that money then to 
stay in Homeland Security or does that somehow get shifted to 
the intelligence community for this function?
    Jim and I agree, the intelligence element of homeland 
security should report directly to the Secretary, and he went 
through the functions that they need to perform with which I 
agree and I will not talk about that.
    Let me talk about a couple of specific questions the 
Committee has asked me to address. First, I do not believe that 
there are any unique legal or privacy concerns raised merely 
because the DCI will now be responsible for the analysis of 
domestic intelligence.
    However, I would like to point out to the Committee that 
under current law the DCI, ``in his capacity as head of the CIA 
shall have no police, subpoena, or law enforcement powers or 
internal security functions.'' Two aspects of this are worth 
dwelling on for just a moment.
    First, the law draws a distinction between the DCI's role 
as head of the CIA and as head of the broader intelligence 
community. This suggests that Congress recognized that as head 
of the intelligence community he would inevitably have some 
role in domestic intelligence and law enforcement matters. 
However, Congress was rightly concerned about the creation of a 
domestic secret police, and thus barred CIA from having any 
police or internal security functions.
    The second clause of this provision, ``shall have no 
internal security functions'' is also worth a moment's 
discussion. I have always understood it to mean that the CIA 
may not play any role in domestic law enforcement other than 
the collection and analysis of foreign intelligence that may 
relate to law enforcement or domestic security. Indeed, CIA has 
done that since its establishment.
    For example, it collects information relating to espionage 
directed against the United States, collects information 
relating to narcotics trafficking, money laundering, and so on. 
However, as this center is established it would be well to 
consider carefully the limits of what the DCI and the TTIC will 
do to be certain that we are comfortable with their roles. Some 
additional guidelines may be necessary to determine where the 
line is between intelligence relating to domestic terrorism, 
which would be legitimate areas for the center to address, and 
intelligence relating to purely domestic political groups which 
should be left with the FBI.
    The center should not, for example, be used to analyze 
information on domestic political groups such as right wing 
militia or hate groups. It must continue to follow the existing 
Attorney General guidelines on such matters as the collection 
and dissemination of information. I, for one, am comfortable 
with the President's proposal but I believe vigorous 
Congressional oversight is needed and perhaps some new 
guidelines.
    Finally, Madam Chairman, as this Committee knows, I have 
been an advocate for some time for creating a domestic security 
service and I think this is the first step in that direction. I 
know Senator Edwards introduced a bill yesterday to this 
effect, Senator Graham has talked about the same thing. I think 
it is time to seriously give that consideration. Thank you.
    Chairman Collins. Thank you very much, Mr. Smith.
    Why don't we start with the point you made last and I would 
like to ask Mr. Steinberg your judgment on whether or not we 
should create a domestic intelligence agency? Many of us have 
concerns about the civil liberties implications of that and I 
would welcome your judgment.
    Mr. Steinberg. Thank you, Madam Chairman. I think that the 
civil liberties issues that we face exist irrespective of where 
the domestic collection takes place. We have civil liberties 
issues if the FBI remains the principle domestic security 
organization or if we have an organization that is separate. On 
balance, I agree with Jeff Smith that we would be better off 
with a separate organization. First, because I do believe that 
a domestic security operation is a very different function than 
law enforcement. We heard earlier from the early panel about 
the cultural problems. I think in some respects that if we try 
to turn the FBI into something which it has not been, we will 
not get the benefit of what the FBI does well, which is an 
important law enforcement function, and will begin a new role 
from a place where they are affected by their traditions.
    So I think we need a fresh start. I think we need to look 
at this question, and I think that the advantage of having a 
separate organization is that we can have a public debate about 
what the rules are that should govern it. If we were to create 
such an organization we would be able to have decisions in the 
statute that created it providing clear guidelines on civil 
liberties measures, on accountability and the like, and it 
would allow us to have a fresh debate that I fear we will not 
have if we simply move the FBI into the domestic security 
function and away from law enforcement.
    I think we do have to remember the difficulties that the 
FBI had in the past when it did play a bigger role in domestic 
security. So I do not feel that just simply by keeping it in 
the FBI that we can necessarily address those problems. I think 
by creating an organization that is focused on the domestic 
security function you will have an organization that defines 
its mission as protecting the American people and is organized 
to do that in the most effective way.
    Chairman Collins. Mr. Smith, based on your experience at 
the CIA do you see duplication between the CIA's Counter 
Terrorist Center and the proposed new integration center? How 
do they differ? It was my understanding that the Counter 
Terrorist Center was supposed to conduct all-source analysis 
and in fact Director Tenet just last year said that it was 
created to enable the fusion of all courses, the same kind of 
language that is being used now to justify the creation of the 
new integration center.
    Mr. Smith. I agree, Madam Chairman, and I think what will 
happen here or what should happen is that the current CTC 
should get much smaller and it should probably focus very much 
on overseas collection of intelligence and overseas operations. 
The analytical function currently being done by the CTC should 
be moved to this new center and combined with the analytical 
functions of the Bureau, because I do think unless that shift 
is made there will continue to be overlap and confusion.
    Chairman Collins. Mr. Steinberg, do you have any thoughts 
on that?
    Mr. Steinberg. I think it is a very good question, Madam 
Chairman, because we have to ask ourselves the question why the 
CTC has not been as successful as we want it to be, and whether 
creating an organization which sounds very much like what the 
CTC was supposed to be would solve the problem.
    I think that there are two reasons why the CTC has not been 
successful. First is, as you explored at length with the first 
panel, there is a problem with joint ventures.
    There is a question of what is the principal set of 
responsibilities of the people who work there, how do they 
think about the problem? I think it is a lesson we learned from 
the Goldwater-Nickles Act in the military context. That if you 
do not give a sense of jointness, of being on the same mission 
to the people who are taking on this task together, they will 
still feel they belong to the domestic equivalent of the Army, 
Navy, Marines, and the like, that you are not going to get the 
kind of coherence and integrated approach that you want. I 
think that has been one reason why the CTC has not been as 
successful as it should be, and that I think will be replicated 
in the new proposal for the TTIC.
    Second, I think you have the problem that there is a 
disconnect between those people who have operational 
responsibility and the analyst. That there is still a lack of 
understanding by the analyst of what is needed by the people 
who are out there in the field to do their job. Under this 
approach, we have lost the sense of connection between 
understanding what a border policeman needs to know, what a 
State and local official needs to know, what a fireman, what a 
doctor needs to know to carry out their job in homeland 
security.
    The analysts exist in some respects in a vacuum from the 
mission. I think that has been a problem. We have used this 
device to assure independence but it has also created a 
disconnect. I think there are other ways to get the 
independence and the check on the quality of the intelligence 
without creating the sense of isolation of the analyst from the 
broader mission.
    Chairman Collins. Mr. Steinberg, do you think that the new 
center, if it does come into existence which I believe it will, 
should be able to direct the collection of data?
    Mr. Steinberg. Irrespective of where it is located, I think 
that it is precisely the people who are trying to understand 
the problem who can help think about where do they want to fill 
in the holes? What are the problems that they see that are not 
being attended to? They have a unique ability to see what the 
requirements are.
    But again, when you think about it in those terms, the 
analysts are one set of the community of people who understand 
what the requirements are, but so are the users. That is, 
again, another reason why I would like to see the connection to 
the users because that way you have the full community of 
analysts and users together thinking about what the 
requirements are, and getting a more focused collection.
    Because, for example, in the area of critical 
infrastructure, we will now have in the department people who 
are looking at the questions of, what are the attacks we are 
most worried about? What are the greatest vulnerabilities we 
have?
    We then need to be able to have them go to the collectors 
and say, we are worried about whether the terrorists can attack 
a chemical plant, or cause damage at a nuclear facility. They 
will understand the problem that needs to be addressed and they 
can focus the direction of the collectors to that end.
    Chairman Collins. Mr. Smith, what is your view on that? 
Should the new center be able to direct the collection of data 
or just be a recipient and analysis----
    Mr. Smith. I do not believe they should be able to direct 
it directly. By that, I mean they should have a key role, and 
indeed the leading role, in suggesting what needs to be 
collected, but that ultimately the DCI has to decide what are 
the priorities of collection. In the intelligence business 
there is a lot of competition for scarce assets.
    For example, how does one decide how the satellites are 
targeted? You cannot have the DCI telling a satellite to 
collect on something and have the head of the center telling 
that same satellite to collect on something different. That is 
the DCI's role.
    On the other hand with respect to issues related to 
homeland security, clearly this center has to have a very 
strong voice.
    One other point I think is extremely important. Whether the 
center is under the DCI or ultimately moved to Homeland 
Security, it is also imperative that the center be able to send 
essentially tasking directives to State and local government. 
The British model, the MI5 is very good on this. They work with 
State and local--in their case all local municipalities, very 
directly to say, here are the issues that we are concerned 
about. Here are the people we are concerned about. Here are the 
organizations we are concerned about. So that the bobby on the 
beat in London or Manchester knows what it is that he is 
supposed to be looking for. That is something that we do not do 
now and that is something that homeland security needs to do in 
the future.
    Chairman Collins. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman. I just have a few 
short questions. This is a fascinating discussion because it 
gives us the opportunity to establish something new that 
theoretically we could do an extremely good job of setting up 
and that could be very beneficial to this country and to the 
world. In the discussions and proposals where do the two of you 
see major points of weakness in any proposal?
    In other words, we talk a lot about who has control over 
this and what is the job description of this entity. But what 
do the two of you see as the major point of weakness, the one 
thing that we need to make sure that we get right, or the one 
thing that we will need to work on the most to make sure this 
is an effective organization?
    Mr. Steinberg. If I could start, I think that in many ways 
the challenge we face on homeland security is a little bit like 
the challenge we faced at the beginning of the Cold War, at the 
end of World War II, when we really had to rethink our national 
strategy. That meant both the substance of our strategy--we 
developed the doctrine of containment and it had a powerful 
impact on the organization of our government and how we----
    Senator Pryor. I agree with you on that. I think that is a 
good point.
    Mr. Steinberg. There is a tremendous temptation to do this 
in a piecemeal fashion. It is hard to make big change in 
government. You know that, this is the Governmental Affairs 
Committee. So the temptation is to make incremental changes. To 
say, the FBI should do a little more here, the CIA will do a 
little bit more here. There is always resistance. There is 
always inertia. There are always costs to change.
    I think that what the Congress has done in this area has 
really pushed the administration both on the strategy and the 
organization to say, think about this as a fresh problem. 
Recognize that we really have never thought about the 
vulnerability of the United States as a core part of what we 
do. It affects our military. It affects our police. It affects 
the relationships between State and local government, the 
private sector and government. These are profound changes and 
we need to have a vision and a strategy that is equal to the 
profundity of this change.
    Mr. Smith. I agree completely. I mentioned the British a 
moment ago. We do not need to necessarily adopt MI5 as the 
perfect model but they start and are charged by the Prime 
Minister with that very question, what are the threats to the 
United Kingdom, whether they originate within the United 
Kingdom or outside of the United Kingdom, that will ultimately 
manifest themselves within the United Kingdom? It is their 
responsibility to figure what to do about them. They collect, 
they analyze, and ultimately work with law enforcement 
officials to act. The strategy is vitally important.
    Another issue that I worry about is confusion and who is in 
charge. The issue of the unity of command that I mentioned at 
the outset, Mr. Steinberg mentioned Goldwater-Nickles. Congress 
made an enormous step forward in linking authority with 
responsibility with resources, and that is very important. A 
Marine general one time put it more bluntly which is, I want a 
designated neck, by which he meant a neck around which I can 
get my hands. That is a very useful concept, and as we organize 
ourselves we ought to designate necks that the President and 
the Congress can get their hands around when things go wrong.
    Senator Pryor. Let us talk about MI5 for just a second. I 
will be the first to admit that I do not know a lot about MI5, 
but you have mentioned it. My perception of MI5, and maybe I am 
wrong, is that it is much more integrated than the U.S. 
counterpart. Obviously there are differences in Great Britain 
and the United States. They have a much smaller geographical 
area, a smaller population, and they do not have the 
Constitution and the Bill of Rights like we do. So there are 
clearly some differences.
    But you have mentioned MI5 a couple of times. Is my 
perception correct that they are more integrated and, as you 
said earlier, the agent on the corner is much more in touch 
with the central office than anybody here in the United States? 
And is that a good model, and is that what we should shoot for?
    Mr. Smith. Let me talk about that for a moment. It has been 
my privilege to work with the British over the years so I have 
some acquaintance with it. As I say, they begin with this 
fundamental question. They report, by the way, to the Home 
Secretary so in that sense they fit ultimately with having this 
whole function report to the Secretary of Homeland Security. 
They develop criteria for collection, they participate in the 
process of what is it that British intelligence agencies should 
collect, MI5, the military services and so on.
    They do not have arrest authority. They are purely a 
collection and analytical body. Nor do I think any of us who 
favor a domestic security service here, none of us want this 
new service to have arrest authority.
    Senator Pryor. Right, but then they collect and analyze, 
but they also have the authority to disseminate to the proper--
--
    Mr. Smith. Absolutely. That is a key point. I do not know 
what happened yesterday at Heathrow but my guess is that MI5 
was very directly involved in the decisions involving the 
security around Heathrow.
    They have in each local municipality in the United Kingdom 
designated police officers who work with them. They are given 
clearances. They are given secure communications. They are 
brought to London periodically for briefings on what is going 
on. There is a flow of information back and forth between 
London and the local police forces with respect to what it is 
that MI5 is interested in. So literally then, the bobby on the 
beat is informed in turn by this core of people in Manchester 
or wherever, Glasgow, on what it is that MI5 is worried about. 
He does not have a clearance but he knows what they are looking 
for, and he knows then how to report it. He reports it back to 
that group which then reports it back to London. It is a two-
way street and it works quite well.
    Ultimately then they are very closely tied to the Special 
Branch and Scotland Yard, who actually do the police work, 
carry out the arrests and ultimately testify in court if need 
be. It is not a perfect model and there certainly are frictions 
and there are problems there as well, and it cannot be imported 
directly here, but I do believe it is worth looking at. As I 
say, I am very pleased that there are now serious proposals 
here in Congress to consider this.
    Senator Pryor. May I ask one more question?
    Chairman Collins. Certainly.
    Senator Pryor. That is, are both of you advocating that 
this joint venture be housed in the Department of Homeland 
Security?
    Mr. Steinberg. I certainly am. I think it is really 
consistent with the idea of, as Jeff said, creating a 
responsible authority. I think that the Secretary of Homeland 
Security ought to have that role. I am very concerned that we 
are having a diffusion of authority. We have a Secretary of 
Homeland Security, we have an Office of Homeland Security in 
the White House which also has responsibilities in this area. 
We are now giving the DCI new responsibilities in this area. It 
is the diffusion that concerns me.
    Mr. Smith. Senator, I differ with Mr. Steinberg only on 
that point. It may be a temporal disagreement. I think for the 
moment it does belong under the DCI, in part because he has got 
the experience, he has got the manpower to do it, and I think 
it makes a lot of sense there. It will be independent and so 
on.
    I also worry a great deal about the confusion that is 
associated with the start-up of Homeland Security. I think we 
may be underestimating how difficult this is going to be to do. 
So I would leave it there for the moment and, as I say, it may 
ultimately be wise to move it to Homeland Security but I think 
for the moment it belongs where it is.
    Senator Pryor. Thank you.
    Chairman Collins. Thank you, Senator.
    Mr. Steinberg, just to follow up on the issue of where the 
center should be located. That is an issue on which we have 
heard diverse opinions today and I have not yet reached a 
conclusion. One of the arguments that I have heard against 
locating it in the Department of Homeland Security is that the 
department's role is focused on security within the borders of 
United States and the center's role is going to be broader than 
that. It would be collecting information about terrorist 
threats against our embassies or forces abroad, for example.
    What is your response to those who would argue that it does 
not make sense to put it within the Department of Homeland 
Security because the center's focus is so much broader?
    Mr. Steinberg. I think that you have to look at the overall 
structure of what everyone will be doing in this effort. The 
CIA is going to be focused on events abroad and terrorist 
threats not only to the United States but terrorist threats to 
friendly countries, to stability of countries that are not 
friendly, so there will continue to be within the CIA a 
responsibility to look at what is going on overseas.
    The question is where do you bring it all together, and is 
the better balance to bring it together in the context of the 
DCI, who is mostly looking overseas, or importing that 
information that is being developed by the CIA and other 
overseas collectors into an agency who is trying to link that 
aspect of the terrorist threat to domestic rules?
    So for example, at least for the moment, we do not believe 
that Hamas is a threat to the United States. It does not have a 
history of either targeting Americans or the United States. We 
are still going to have somebody in the CIA who is collecting 
on them. But if we keep the responsibility for homeland 
security at the CIA, as I believe it will be under this joint 
venture, then I think that there is a danger that too much of 
this will be focused away from the homeland mission and not 
sensitive enough to the needs of the people who are actually 
carrying out the mission.
    So inevitably you are going to have to make a choice as to 
where the balance goes because this will need to be an all-
source center. I think the question is, who is going to pull 
out that part of the foreign terrorist intelligence that is 
directly related to the homeland and understand best how to 
take that foreign intelligence and relate it to threats here?
    I believe that on balance, though obviously there is no 
perfect answer to this, that the right division is to say, of 
course the CIA will still be looking at terrorism abroad but 
this new center will still be involved in tasking. I agree with 
Jeff, that, when I say that the new domestic security agency 
should be involved in tasking, I do not mean that they should 
have their hands on the satellite apertures but they should be 
tasking the foreign collectors to look into, what al Qaeda is 
doing in Afghanistan that may be relevant to the United States. 
But I think that the weight of where their focus should be is 
to be able to look at the foreign intelligence and see how it 
affects threats against us here at home.
    Chairman Collins. Mr. Smith, in addition to the argument 
that Mr. Steinberg just made, an argument has been made against 
locating the new center under the control of the CIA director, 
that then the center will just once again become a creature of 
the CIA. That you will lose the whole intent of this center. 
What is your response to that?
    Mr. Smith. It is very much a function of leadership. It is 
a question of who is put in charge. It is a question of the 
quality of people who are assigned there. There is a risk if it 
is housed at Langley that it will take on the character of a 
foreign intelligence center.
    I think, however, that there will be--the people who are 
assigned there from the Bureau or from Homeland Security, or 
Customs or Immigration, wherever, will have as their 
responsibility to worry about their home agencies. There is no 
doubt that George Tenet is personally focused on this to make 
it work and to make it work to support Governor Ridge. I think 
that as long as that is the case there is some, but not much 
risk, that it will be captured by the intrigue of foreign 
intelligence. In my judgment, it will remain focused.
    Mr. Steinberg. If I could just add, Madam Chairman, I think 
obviously there are trade-offs here. The other risk in placing 
responsibility under the DCI, is that, as several Members of 
the Committee pointed out, as serious as the threat to the 
homeland is, we have other things we have to worry about. We 
have to worry about weapons of mass destruction. We have to 
worry about turmoil abroad. Director Tenet has a lot of 
responsibilities, so he cannot afford to wake up every day and 
only worry about the homeland.
    The advantage of what you have done by creating a Secretary 
of Homeland Security is that somebody who can wake up every day 
and only think about it. That I think is my worry. I have the 
same worry about the FBI. That while I am sure they will try to 
do a good job as they move into this area, the question is, do 
you want somebody who has to wake up and worry about all of 
these things or is this such a central function that you really 
do want one person who organizes everything around that 
mission?
    Chairman Collins. Thank you, both.
    Senator Pryor, do you have any further questions you would 
like to ask?
    Senator Pryor. I do not. Thank you.
    Chairman Collins. I want to thank both of you for 
testifying before us today. I think this hearing has been very 
helpful to hear a variety of views on the new center. We look 
forward to also having a second hearing at which administration 
witnesses will be testifying as well.
    I want to also thank my staff for putting together this 
hearing. It is the first hearing on the concept that the 
President revealed during his State of the Union address. So 
thank you for your assistance and this hearing is now 
adjourned.
    [Whereupon, at 11:51 a.m., the Committee was adjourned.]


                  CONSOLIDATING INTELLIGENCE ANALYSIS:
                  A REVIEW OF THE PRESIDENT'S PROPOSAL
                      TO CREATE A TERRORIST THREAT
                           INTEGRATION CENTER

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Levin, and Akaka.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good morning. The Committee will come to 
order. First I want to disclaim any responsibility for the 
weather. Even though I am from Maine, I did not bring this 
weather with me in any way and I just wanted to make that clear 
while we have all these intelligence experts in the room.
    Today the Governmental Affairs Committee is holding its 
second hearing on the President's proposal to create a 
Terrorist Threat Integration Center. We are very pleased to 
have a distinguished panel of administration witnesses to 
answer the many questions about the mission, structure, and 
responsibilities of the new center.
    The sharing of intelligence among Federal agencies was a 
serious problem long before the horrific attacks of September 
11. But it was the terrorist attacks that focused attention on 
the serious consequence of inadequate communication and 
interagency rivalries. As the lead Federal law enforcement 
agency responsible for collecting domestic intelligence, 
including terrorism related intelligence, the FBI historically 
has focused on investigating and developing criminal cases. At 
times the FBI has failed to share critical domestic 
intelligence because of concerns that the disclosure of such 
information could jeopardize its criminal cases.
    As the primary Federal agency responsible for collecting 
foreign intelligence related to terrorism, the CIA also has 
been hesitant to share information because of concerns that 
such disclosures would jeopardize its methods and sources.
    The result of these barriers has been that far too often 
critical intelligence has not reached those who really need it. 
After September 11 it became readily apparent that government 
agencies must do a better job analyzing and sharing terrorism 
related intelligence. Congress moved toward that goal in 2001 
by passing legislation to facilitate the sharing of 
intelligence information, and then last year by approving the 
Homeland Security Act.
    The administration has also taken a number of positive 
steps since September 11. The FBI and the CIA have expanded 
both their analytical capabilities and their cooperation. But 
these changes have not gone far enough. Administration 
representatives have stated that information sharing between 
the FBI and the CIA still is too often achieved through ``brute 
force.'' The President is attempting to address these 
impediments to the timely sharing of critical information by 
creating the Terrorist Threat Integration Center. Nevertheless, 
there are many questions that remain about the implementation 
of the administration's plan.
    The first and perhaps most fundamental question is, how 
will the integration center be an improvement over the existing 
intelligence structure? We currently have a Counter Terrorist 
Center within the CIA that has access to all government 
intelligence relating to terrorism. As CIA Director George 
Tenet has noted, the center ``was created to enable the fusion 
of all sources of information in a single action-oriented 
unit.'' Frankly, that sounds a lot like the proposed 
integration center, which raises the obvious question of how 
the new center will improve the sharing of intelligence 
information among agencies.
    A second key question is, what is being done to ensure that 
the integration center will streamline and consolidate 
intelligence analysis rather than create duplication and 
mission confusion. I have prepared a chart \1\ that shows some 
of the agencies that are now responsible for collecting and 
analyzing terrorism-related intelligence. As you can see, it is 
a very confusing picture. Including the integration center in 
the chart does not make the picture any less complex. It simply 
adds another box. We need to understand how this additional box 
will improve the flow of information to the agencies and 
individuals that need it.
---------------------------------------------------------------------------
    \1\ The chart entitled ``Primary Agencies Handling Terrorist-
Related Intelligence (With Terrorist Threat Integration Center)'' 
appears in the Appendix on page 119.
---------------------------------------------------------------------------
    A third question concerns the proper location of the new 
center. Some experts believe that the Department of Homeland 
Security should be the hub of all homeland security activities 
including intelligence analysis. By reading the Homeland 
Security Act, one could make a compelling case that the new 
department was meant to be the fusion center for the analysis 
of intelligence relating to homeland security. Should the 
integration center therefore be under the control and the 
direction of the Secretary of Homeland Security rather than the 
Director of Central Intelligence? We would like to obtain a 
better understanding of the reasoning behind the 
administration's decision and how the integration center will 
interact with the new Department of Homeland Security.
    Another important question is, how will the center share 
appropriate information with State and local authorities, our 
front line troops in the war against terrorism? It is one thing 
to analyze intelligence information well, but if the people who 
need the intelligence do not receive it, then the effort has 
been of little use.
    Still another key issue is the center's ability to overcome 
historic agency resistance to change. There have already been 
news reports indicating opposition to the integration center in 
both the CIA and the FBI. What is being done to overcome agency 
resistance so that it does not undermine the center's core 
mission?
    Finally, will the integration center adequately address and 
safeguard privacy and other legal concerns? The President's 
proposal places the Director of the Central Intelligence in 
charge of the integration center. In that position he will be 
responsible for the analysis of domestic as well as foreign 
intelligence. I understand that the administration has reviewed 
the legal issues carefully but I want to ensure that the 
center's activities will not infringe on the Constitutional 
rights of law-abiding Americans.
    At last week's hearing we did not hear of any opposition to 
the concept of a Terrorist Threat Integration Center, but a 
number of questions were raised by Members of this Committee 
and by our witnesses concerning the implementation of this 
plan. It is my hope that our expert administration witnesses 
will help us fully answer those questions today. If the 
administration can achieve its stated goals by the creation of 
this new center, I believe that the integration center will 
usher in important new capabilities in the way that our 
government analyzes intelligence and shares it with those who 
are responsible for protecting our people and our Nation. But 
its success will depend on overcoming formidable historic 
barriers to information sharing and cooperation.
    I look forward to hearing from our witnesses today. At this 
time I would like to ask the Senator from Minnesota if he has 
any opening comments that he would like to make.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. I think your 
opening statement did a tremendous job of summarizing areas of 
concern for a number of us. Just looking at the chart up there 
I think the question is, is it going to work, and can you make 
it work? And can you make it work, by the way, not just for 
those at the top levels but for those at the local level who 
have to deal with it at the frontline. I come from the 
perspective of a local citizen.
    Second, Madam Chairman, let me reiterate the other concern 
that you raised in that you have to, we have to make it work, 
and you have to make it work in a way that does not infringe 
upon the rights and Constitutional protections of privacy of 
law-abiding American citizens. So I think those are the 
challenges. We need to make this work. We need to work together 
to make this work and I look forward to the testimony today.
    Chairman Collins. Thank you very much, Senator Coleman. 
Your perspective as a mayor will be very helpful as we sort 
through how this new center should interact with State and 
local law enforcement officials. That is often a challenge 
because they do not have security clearances in most cases and 
because we do not want to overwhelm the center with responding 
to local inquiries, but at the same time there needs to be some 
kind of system for sharing essential information and we look 
forward to your insights in that regard.
    I am very pleased to welcome our distinguished panel of 
administration representatives today from the FBI, the CIA, and 
the Department of Homeland Security. They are leading their 
respective agency's efforts to create the new Terrorist Threat 
Integration Center. We understand that the President's proposal 
is still under development but we very much appreciate your 
sharing your preliminary insights with us today. We are pleased 
to be joined by the Hon. Gordon England who is Deputy Secretary 
of the Department of Homeland Security, the first deputy 
secretary. He previously served as Secretary of the Navy, and 
before that had a distinguished career in the private sector at 
General Dynamics Corporation.
    Pasquale D'Amuro is the Executive Assistant Director for 
Counter Terrorism at the FBI. He was appointed by the Director 
to be the Executive Assistant Director for Counter Terrorism 
and Counter Intelligence in November of last year. He is the 
lead FBI official on counterterrorism issues and has had a 
distinguished career with the FBI since 1979.
    Our third panelist is Winston Wiley, who became the 
Associate Director of Central Intelligence for Homeland 
Security in May 2002. In this capacity Mr. Wiley is tasked with 
ensuring the efficient and timely flow of intelligence in 
support of the homeland security effort. He is also the acting 
chair of the Terrorist Threat Integration Center Steering 
Committee. So I very much appreciate his being with us as well.
    I am going to start with Mr. Wiley. I understand that 
Secretary England does not have a formal statement; is that 
correct, Mr. Secretary?
    Mr. England. Yes.
    Chairman Collins. So we will start with Mr. Wiley. Thank 
you, you may proceed.

STATEMENT OF WINSTON P. WILEY,\1\ ASSOCIATE DIRECTOR OF CENTRAL 
 INTELLIGENCE FOR HOMELAND SECURITY AND CHAIR, SENIOR STEERING 
                             GROUP

    Mr. Wiley. Thank you, Madam Chairman and Senator Coleman. 
Let me begin by saying that the statement that I have and that 
I have submitted for the record is not just my statement. It is 
a joint statement that we have all participated in pulling 
together. Indeed, the effort to put together a response to the 
President's charge to come up with a threat integration center 
was, from the beginning, seen as a joint effort. The senior 
steering group, the members of whom are at the table and 
sitting behind me, saw this as a joint effort and have created 
an institution that we think represents that. So as I go 
through these remarks do not think of them just as coming from 
the Director of Central Intelligence. They, in fact, represent 
the views of all of us in this effort.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wiley appears in the Appendix on 
page 113.
---------------------------------------------------------------------------
    Turning to that, let me say a little bit about how we got 
here. When the Director charged us with going forward with 
putting some real meat on the bones of the proposal we knew 
that the key agencies needed to be involved, and that was the 
CIA, the FBI, and the Department of Homeland Security. But the 
Department of Defense, the Department of State, and the Office 
of Management and Budget would also need to play a role. So 
they represented the core steering group and all of those are 
here. You have introduced those at the table. John Brennan is 
the Deputy Executive Director from the Central Intelligence 
Agency. He represented the CIA while I represented the Director 
in his community capacity. Cofer Black is the Ambassador at 
Large and Special Assistant to Secretary Powell for 
counterterrorism at the Department of State. And Rich Haver 
from the Department of Defense is with us, and Steve McMillan 
from OMB.
    Again, integration and partnership in the sense of joint 
venture is what we had in mind from the beginning. The hard 
work of putting together the proposal was done by subject 
matter experts from all these agencies and beyond. They 
reported back to us, and we proposed formally up through the 
DCI and our respective principals to the President, and that 
was accepted.
    Let me go through some of the points that are in the 
statement that we have prepared without going actually to the 
trouble of reading it all into the record. The first has to do 
with the mission and structure and gets at one of the questions 
that you had. The goal really is the full integration of U.S. 
Government terrorist threat-related information and analysis. 
Bringing together both the foreign intelligence that is 
collected overseas and what we call the foreign intelligence 
that is collected domestically by the Bureau and others, so 
that it is fused and looked at in a comprehensive fashion.
    The structure is designed to ensure rapid and unfettered 
sharing of relevant information across department lines. We 
keep using the term joint venture because we feel the TTIC 
needs to be an institution that has parts of all of the holders 
of information in that component. The objective is to create 
value added efficiencies in analyzing the full array of 
terrorist threat-related information.
    You used the term brute force earlier, which is a fair 
characterization. But what we have to acknowledge is that brute 
force is exercised every day, and very diligently and carefully 
by officers of the Central Intelligence Agency, other parts of 
the TTIC, and the members of the FBI. We do make it work, but 
we need to make it work better and we need to institutionalize 
some of the things that are today being done simply because 
people are so diligent and careful to get them done.
    TTIC, the Terrorist Threat Integration Center, will be 
composed of elements from the Department of Homeland Security, 
from the FBI's counter terrorist division, from the Counter 
Terrorist Center at CIA, as well as elements of the Department 
of Defense, DIA, JITF-CT, NSA, NIMA, and other agencies that 
have a stake in what TTIC will do. The State Department is a 
good example of that. TTIC will combine the terrorist threat-
related information in a way to provide a more focused and 
comprehensive government counterterrorist intelligence effort 
in defining the threat.
    I have mentioned that among the most important features for 
TTIC is unfettered access to all information, all intelligence 
information, whether it is from raw reports to finished 
analytic assessments. That is essential in order to be able to 
pull the work together and has been clearly reflected in the 
discussions that led up to the Homeland Security Act as well as 
the other discussions post-September 11. TTIC will need to 
provide all-source threat assessments both to the national 
leadership and, as Senator Coleman said, to the broader 
homeland security community which certainly includes State and 
local as well as private sector officials, and finding the ways 
to do that in the appropriate formats is one of the key 
missions.
    TTIC will also oversee a national counterterrorism tasking 
and requirements system. Intelligence, in order to work, 
fundamentally has to begin with a requirements process that 
identifies the key questions that collectors have to go collect 
against. That information is brought back, assessed, analyzed, 
distributed and then balanced against those requirements. We 
talk about an intelligence cycle, but it begins at its heart 
with a requirements system and TTIC will play a key role in 
organizing that on the counterterrorist homeland security side.
    Finally, another key responsibility will be to maintain a 
database of known and suspected terrorists that is accessible 
at the Federal and non-Federal level with appropriate controls 
and security clearances, and bringing the various databases 
that exist today in various places together into a centralized 
capability.
    The principal objective, and again it gets back to your 
first question is that TTIC needs to close the gaps that 
separate the analysis of foreign source and domestic source 
terrorist threat information and ensure optimum support of the 
wide range of customers for homeland security information, 
those at the Federal level as well as those in the State, local 
and private sectors.
    Let me turn to a second point that is addressed in the 
statement. TTIC cannot reach its full end-state capabilities 
overnight. We need, obviously, to grow and we need to grow as 
quickly as we can. But we also need to grow in a way that does 
not smother the effort by being over-ambitious in its initial 
days. Stand-up will occur by May 1. It will focus on 
integrating terrorist threat-related information and pick up 
some of the responsibilities that are today exercised jointly 
between the FBI and the CTC. One of those is the preparation of 
a daily threat matrix that you have heard about. Situation 
reports, updates on threats, and interagency terrorist threat 
warnings, picking up those responsibilities from the various 
government agencies is critical.
    As soon as possible thereafter, TTIC should become the 
principal gateway for policymaker requests for assessments 
about terrorist threats. As it grows in capability, and what we 
see is an incremental growth as we move towards its ultimate 
full strength that I will talk about, TTIC would stock and 
maintain the database of known and suspected terrorists that I 
talked about. It will be producing the current intelligence and 
terrorist threat-related assessment, drawing on resources not 
just in TTIC but in the various agencies that are contributors 
to TTIC but are maintaining some inherent capability of their 
own. TTIC will be able to reach back into its parent agencies 
to provide it with an instantaneous surge capability that draws 
on the strength of a wide range of agencies.
    What we are trying to do is make sure that we build on what 
works. We do not want to undo things that are working well, and 
that is especially true when it comes to the integration of the 
work of collectors of information and the analysts, whether 
that is at the CIA or in the Intelligence Community or at the 
FBI. That is happening today. We want to build on that and make 
sure that there is a better fusing across the domestic and 
foreign side.
    When TTIC reaches its full end-strength capability it will 
be collocated with the CIA--the DCI's--Counter Terrorist Center 
and with the FBI's Counter Terrorism Division in a building 
that has yet to be acquired but that we are actively working 
on. Prior to that, TTIC--while it is not a CIA organization, it 
is an organization that reports to the DCI in his capacity as 
Director of Central Intelligence--will be located on the CIA 
compound, as are other independent Intelligence Community 
entities today. So we are sensitive to not creating it as a CIA 
organization, but the smartest place to build the interim 
capability is in space that we have at the CIA.
    Let me talk about the command structure quickly. The 
director of TTIC needs to be a senior, very senior U.S. 
Government official who reports directly to the DCI in his 
statutory capacity as head of the Intelligence Community. He 
would be appointed by the director in consultation with the 
other partners in pulling together the TTIC. The director of 
TTIC will have the final review and approval authority for all 
of the intelligence that is prepared by TTIC. For national 
level analysis that is produced outside of TTIC, our 
expectation is that the director of TTIC will play a role in 
coordinating that, recognizing that agencies may do some 
departmental work just as is done today across the Intelligence 
Community.
    I mentioned information access and the criticality of that. 
TTIC as an organization must have access to the full array of 
terrorist threat-related information within the U.S. 
Government. We can do that consistent with all the necessary 
protections and working smart by making sure that individual 
members of TTIC have access to information they need to do 
their work while the organization as a whole, and the 
leadership of the organization, have access to information that 
is comparable to what the head of CTC at CIA and the head of 
the Counter Terrorist Division at FBI has. So we think we can 
work both the necessary sharing within the organization and do 
the necessary work of protecting the most sensitive 
information.
    Critical to making this work is a robust information 
technology base, one that will be particularly vigorous in the 
collocated end-state when CTC, CTD, and TTIC are located 
together. They all need to be able to draw on their own 
information bases, but we need to be able to bring that 
information together in the TTIC environment and share it in 
ways that allow us to do the most detailed analysis, use the 
most modern tools, and have the most aggressive sharing 
mechanisms available to us.
    I would close with a thought about the work of TTIC just as 
you did. It is a work in progress. In fact if we do it right, 
TTIC will always be work in progress. It needs to start small. 
It needs to grow quickly. But we need not to be locked into 
particular institutional solutions. Rather with our eye on the 
ball, what we are trying to do is make sure that we have the 
best mechanisms in place to provide threat information to our 
national leadership and to the American people. We will be 
making adjustments as we go along based on what we think works 
rather than tell you today that we have the perfect plan that 
takes us from here out to the year 2010.
    With those thoughts, let me close and I think my friend Pat 
D'Amuro has some comments that he may want to share.
    Chairman Collins. Thank you, Mr. Wiley. Mr. D'Amuro.

   STATEMENT OF PASQUALE J. D'AMURO,\1\ EXECUTIVE ASSISTANT 
  DIRECTOR FOR COUNTERTERRORISM/COUNTERINTELLIGENCE, FEDERAL 
                 BUREAU OF INVESTIGATION (FBI)

    Mr. D'Amuro. Thank you, Madam Chairman and Senator Coleman. 
Thank you for the opportunity to add just a few short comments 
from the statement I have with respect to Mr. Wiley's efforts 
with the steering committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. D'Amuro appears in the Appendix 
on page 117.
---------------------------------------------------------------------------
    As we know, President Bush recently emphasized during a 
speech at FBI headquarters that the FBI has no greater mission, 
no greater priority than preventing the next terrorist act in 
America. We strongly support the formation of the TTIC and we 
are proud to be a partner with both the CIA, Homeland Security, 
and all the other participating agencies.
    The FBI's experience in conducting complex criminal and 
terrorist investigations has shown that analysts are most 
effective when they are in constant and close communication 
with the investigators. For this reason we strongly support and 
look forward to the expeditious implementation of plans to 
collocate not only the TTIC but the FBI Counter Terrorism 
Division and the CIA Counterterrorism Center along with the 
Department of Homeland Security.
    As you know, the FBI has established 66 joint terrorist 
task forces in the field offices around the country as well as 
a national joint terrorism center at FBI headquarters. The 
JTTF's partner FBI personnel with hundreds of investigators 
from Federal, State, and local agencies. These partnerships 
provide an effective and efficient mechanism to collect 
domestic intelligence crucial to preventing the next attack 
domestically. The fusion of this domestic and international 
threat intelligence is critically important for the FBI to 
complete its mission of preventing the next and future attacks 
domestically.
    The FBI views the TTIC as an important resource. The TTIC 
will not only provide all-source integrated analysis to the FBI 
but also to the officials in State and local law enforcement 
who are essential partners in the fight against terrorism. We 
recognize that the two-way flow of information between Federal 
and local law enforcement is necessary to continuously sharpen 
both the collection and the analysis of threat-related 
information. Once again, the 66 JTTFs across the country 
provide an effective channel to share the TTIC analytical 
products with our partners in State and local law enforcement. 
We are committed to working with the Department of Homeland 
Security to push information and analysis out of the TTIC to 
all Federal, State, and local agencies.
    We are expanding our ability to collect, analyze, and 
disseminate intelligence. The centerpiece of the director's 
efforts is the establishment of an executive assistant director 
for intelligence who will have direct authority and 
responsibility for the FBI's national intelligence program. 
Specifically, the EAD for intelligence will be responsible for 
ensuring that the TTIC's reporting requirements are met by all 
the field offices.
    Our support of the TTIC will not change our mission, 
priorities, or operations. In fact, the TTIC will only 
strengthen our capabilities. The Bureau is uniquely positioned 
to bring both national security and law enforcement authorities 
to bear in the war against terrorism. Recently, the ability to 
develop intelligence on terrorist activities and use law 
enforcement powers to disrupt them was exemplified in Buffalo, 
New York where seven al-Qaeda associates and sympathizers were 
indicted in September 2002 for providing material support to 
terrorism.
    Every FBI agent is trained to recognize that along with 
these broad authorities comes the responsibility to implement 
them fairly and in accordance with the protections provided by 
the Constitution. It is important to note that the Bureau's 
role, and the roles of all TTIC participants, must and will 
remain consistent with the protections provided by privacy 
laws, executive orders, Attorney General guidelines, and other 
relevant legal authorities under the protection of the 
Constitution to safeguard the civil liberties of the citizens 
of this country.
    Again, I will keep this statement short because I know you 
have a lot of questions, but thank you for allowing me to 
appear today.
    Chairman Collins. Thank you very much.
    Secretary England, do you have anything you would like to 
add to your colleagues?

STATEMENT OF HON. GORDON ENGLAND, DEPUTY SECRETARY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. England. Let me just make a comment, Madam Chairman. 
First of all, I thank Mr. Wiley for all his work with chairing 
this group that we put together. I will tell you that the TTIC 
is vitally important to the Department of Homeland Security. We 
have been part of the effort to create this structure in 
response to the President's initiative. This is vitally 
important for us to do our job in the Department of Homeland 
Security, so you will find us a very significant proponent of 
this approach; very supportive, and we will work very closely 
with all the other agencies to make this very successful. In my 
judgment, this is very important for America, so it has the 
full support of the Department of Homeland Security and we will 
be happy to work with you as we fully develop this concept in 
the coming weeks and months ahead.
    Chairman Collins. Thank you.
    Mr. Wiley and Mr. D'Amuro, our government already has a 
Counter Terrorist Center which is under the supervision of the 
Director of Central Intelligence, and when you look at the 
details of the current Counter Terrorist Center and the 
proposed Terrorist Threat Integration Center they seem, at 
first analysis, to be quite similar. I quoted Director Tenet's 
comments that it was supposed to be all sources of intelligence 
would be analyzed. Both do have access to all sources of 
government information about terrorism. Both are under the 
supervision of the Director of Central Intelligence. I believe 
both have staff from a number of agencies conducting 
intelligence analysis. In light of those similarities I have 
two questions.
    First, in practical terms how will the proposed Terrorist 
Threat Integration Center be different from the Counter 
Terrorist Center that already exists on the organization chart 
\1\ that I showed you?
---------------------------------------------------------------------------
    \1\ The chart entitled ``Primary Agencies Handling Terrorist-
Related Intelligence (With Terrorist Threat Integration Center)'' 
appears in the Appendix on page 119.
---------------------------------------------------------------------------
    Second, given the fact that at least at first blush they 
appear very similar, how will the new center address problems 
that have plagued our analytical efforts so far? They seem so 
similar that I am concerned about duplication. And if they are 
structured in similar ways, how will the new center be an 
improvement over what we have?
    I am going to ask a similar question to Mr. D'Amuro.
    Mr. Wiley. Thank you, Senator. I think that at first blush 
it is possible to say that the TTIC bears a similarity to the 
Counter Terrorist Center. But I think that you have to go a 
step beyond that first level of analysis. I think that what you 
have in TTIC is a much more vigorous presence of Intelligence 
Community and law enforcement and DHS employees in a common 
environment, with reachback capability to their respective 
agencies, in which all of that information is brought together.
    CTC does have, and has long had, and will continue to have 
detailees from other agencies in it. But what we envision in 
TTIC is a more robust presence and a more explicit set of 
responsibilities for integrating that flow of domestically 
collected foreign intelligence, which is growing. The TTIC by 
itself is not the only change that is going on. The change in 
collection philosophy and dissemination philosophy--what is 
going on at the Bureau--Pat D'Amuro can talk about--is 
instrumental in helping to make TTIC a success. It will 
increase the amount of domestically collected information about 
foreign terrorist groups that can be fused. And by bringing the 
analysts together, having them work literally in a common 
environment, I think that is a significant step up from where 
we are today.
    Chairman Collins. Mr. D'Amuro, the FBI has a 
counterterrorism division. It is my understanding that is still 
going to exist when the new center is created. How can we avoid 
duplication?
    Mr. D'Amuro. I think that it is important to understand 
that the TTIC is being created for the fusion of an analytical 
product with respect to threat information. It is not an 
operational entity. The counterterrorism division at the FBI 
headquarters will still maintain its operational role 
throughout the country as being the lead agency domestically 
with respect to counterterrorism investigations.
    If I could just add a few comments to Mr. Wiley's--it is 
the fusion of that intelligence and the production of one 
analytical product that I see extremely critically important 
that we'll be able, through the JTTFs, to disseminate that 
product to all State and local law enforcement authorities that 
are part of the JTTF. There is also a program underway at the 
Bureau to reach out for all the State and local entities that 
are not members of the JTTF so that we can make sure, not only 
do we provide them with one fused analytical product, but also 
tap into their ability to collect information and intelligence 
which would be critical to preventing the next terrorist act.
    So while the TTIC is being formed for the fusion of the 
intelligence product, both CTC will maintain its operational 
responsibility as well as the FBI maintaining its 
responsibility for the conduct of intelligence and criminal 
investigations with respect to counterterrorism.
    Chairman Collins. Let me follow up on the use of sharing 
information with State and local law enforcement. You have 
described a system under which the joint terrorism task force, 
I guess, would act as an intermediary to distribute 
information; is that correct?
    Mr. D'Amuro. What the plan is, is that through the national 
JTTF at FBI headquarters, that would be the distribution 
mechanism for the fused analytical product out to all the 
JTTFs, the 66 JTTFs that are now in existence across the 
country. In addition to that, we are going to be reaching out 
to all State and local entities even if they are not permanent 
members of the JTTFs. So, yes, it will be the mechanism for 
distribution of that product.
    Chairman Collins. But what is going to happen in the other 
direction? The complaints that I hear from police chiefs of our 
major cities in Maine is that when they are in a state of high 
alert, as we are now, and they have reason to be concerned--and 
this happened recently in Portland, Maine where a foreign 
national was taking photographs of our oil tank farms on the 
Portland waterfront, and when the police chief tried to get 
information from the FBI about whether this individual was on 
the watch list, he had a very difficult time in getting an 
answer from the FBI.
    What are we doing in the other direction? I understand when 
you have a product or information that needs to be shared it 
will go through the joint terrorism task force. But what does a 
police chief in Portland, Maine who is concerned about the 
vulnerabilities of our ports and sees something suspicious, or 
certainly raising concern, how do we improve the flow of 
information in the other direction?
    Mr. D'Amuro. That is the main purpose of the creation of 
the Office of Intelligence for the Bureau. What the Office of 
Intelligence will do and what the Bureau has not done in the 
past is establish intelligence requirements. It will ensure 
that the field offices are out collecting the intelligence 
necessary for the protection of this country. Providing 
information and intelligence with respect to vulnerabilities of 
various seaports and other infrastructure protection matters 
will be the mission of Homeland Security. We will provide that 
information through the executive assistant director, setting 
those requirements, make sure those requirements are met, and 
making sure that intelligence is collected in the field.
    I am unaware of the situation that you mention but that 
police chief should have been able to get information from the 
joint terrorism task force, which in that case would have been 
out of Boston and I believe a resident agency in Portland. That 
is the way it is supposed to work. That is the vision of how we 
plan to collect that intelligence and making sure that it gets 
to the different agencies that it needs to go to. That 
establishment of the requirements will not be the only 
mechanism for the Office of Executive Assistant Director for 
Intelligence. We are also changing the metrics by how we judge 
our field offices and how we judge and promote executives into 
the Bureau. They will have requirements for the collection of 
that intelligence that will be used in their performance 
appraisals.
    Chairman Collins. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you. Thank you very much, Madam 
Chairman. I am pleased that you are holding this hearing today. 
We have had a hearing before this that raised some issues and I 
think we came out of that one being concerned about maybe 
having too many or creating too many intelligence centers. 
Senator Rudman at that time expressed concern about confusion 
in our intelligence analysis and collection. So this hearing 
will certainly help us, I am sure, to learn more about what we 
need to do.
    As I hear your concerns too, the difference between the 
former structure and the one that we have now is that we have 
added TTIC to it. Hopefully TTIC will resolve some of these 
problems. So I am glad that we are having this and may I ask 
that my statement be placed in the record?
    Chairman Collins. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA
    Madam Chairman, the issues raised in the first hearing on the 
President's proposal to create a Terrorist Threat Integration Center 
(TTIC) were important ones. I am pleased that you are holding this 
hearing with the administration.
    At our last hearing, Senator Rudman, one of the witnesses, made the 
point that we need to be careful to limit the confusion in our 
intelligence analysis and collection. As I mentioned at that last 
hearing, I am concerned that we may be creating too many intelligence 
centers to evaluate the same information and respond to the same 
threats.
    For example, the CIA has its Counter Terrorism Center--the Defense 
Intelligence Agency has its counter terrorism center--the new 
Department of Homeland Security will have an Information Analysis and 
Infrastructure Protection Directorate--the Army has an Information 
Dominance Center--DOD is developing a Total Information Awareness 
program--and the FBI has a Counter Terrorism Division. Now the 
President proposes a new Terrorist Threat Integration Center which 
apparently will include representatives from all these different 
centers.
    Mr. Wiley, in his testimony, will suggest that TTIC is going to 
have all the information, including raw reports, that other agencies 
are producing and that it will maintain a database of terrorists 
accessible to some non-federal officials and entities. This library of 
terrorist reports will be useful only if it contains accurate 
information and is available to the people who may need it the most--
local police forces and other first responders.
    I am concerned that there still appears to be a disconnect between 
information and the people who need it at the local level. All the 
reports in the world will not be of any value if no one who needs to 
know can find them.
    I am also worried that this system does not provide a mechanism for 
ensuring investigations are fully carried out. There were numerous 
times prior to 9-11 when FBI agents reported suspicious activities 
which have subsequently been linked to those attacks but those reports 
were not followed up on. I want to know--the American public wants to 
know--who is responsible? Who is in charge of ensuring that all the 
intelligence reports are acted upon?
    Will this new intelligence center resolve that problem or only add 
to the problem?
    I look forward to the testimony and hope these questions will 
finally be resolved.

    Senator Akaka. Thank you. I am so glad to have our panel 
this morning, and especially Secretary England. Good to see 
you, and always good to be with you.
    Mr. England. Senator, good to be with you. I wish I was 
with you in your home State today, however. [Laughter.]
    Senator Akaka. One hundred percent agreement.
    Secretary England, at our last hearing on this subject 
Governor Gilmore pointed to the institutional and cultural 
barriers to intelligence sharing, especially with State and 
local officials as mentioned by the Chairman. Although I share 
his concern, I worry that we are creating a multitude of 
intelligence agencies, all of them performing important 
functions including sharing information with this new agency 
TTIC. However, it is still not clear who is responsible for 
ensuring the proper response to a terrorist threat. So let me 
pose a scenario to my question.
    The CIA receives information about a foreign terrorist 
group that is thinking about targeting cruise ships. The FBI 
gets information about foreigners with seafaring backgrounds 
entering the United States for some illegal purpose. The 
Honolulu Police Department receives reports about suspicious 
people loitering about or around the port.
    Question, who is responsible for putting all these bits of 
information together, instigating an investigation, alerting 
local officials, and telling the public what it should do? Is 
it the Director of the CIA, the FBI, or the Secretary for 
Homeland Security? As you can see, some of the confusion that 
has resulted, especially from the periodic announcements that 
we are on high terrorist alert, comes because the public is not 
certain who is in charge of dealing with these threats. So my 
question then is, who is responsible for putting all of these 
bits together?
    Mr. England. Senator, I believe that is clear to me. With 
this new Terrorist Threat Integration Center, all the data 
would come into this one center. The nice thing about this--
this is not a new agency, by the way. This is a center. This is 
an integration of existing capability that we put together so 
we can collaborate and exchange data and analyze data jointly 
to get a best answer from the data sources that we have. So all 
the data would go into this center.
    We, the Department of Homeland Security, will have analysts 
and we will have assessment people in this center. So this is 
part of Homeland Security. Our responsibility is to relate 
these threats to our infrastructure. So we will have assessment 
capability, unique assessment capability that when we see these 
threats, our people will be aware of critical infrastructure, 
public and private, throughout America and throughout our 
territories, etc. That will be our job and our obligation to 
make those connects, to alert the appropriate people and to put 
protective measures in place, or respond if we have to. But 
that will clearly be a responsibility of the Department of 
Homeland Security working as part of the TTIC with the CIA, the 
FBI, and the other intelligence agencies.
    So I believe that the TTIC will provide a capability to do 
that kind of assessment and to make those kinds of connections.
    Senator Akaka. Thank you. I see more the need of TTIC as 
you explain it.
    Mr. Wiley, you are deputy chief of the CIA's Counter 
Terrorist Center and I understand that there is discussion 
about collocating the Terrorist Threat Integration Center with 
the CIA's Counter Terrorist Center. As you know, the CTC is 
unique. Operations officers are brought together with an 
analyst as an integral part of the targeting operation and 
analytical functions of counterterrorism efforts. The TTIC is 
not supposed to have an operational function.
    First, how are you going to maintain operational security 
with CIA operation staff working together with TTIC personnel?
    And second, what is the rationale for involving TTIC 
directly in operations as is now the case in the CIA's CTC?
    Mr. Wiley. Senator, the Counter Terrorist Center today, as 
it was when I was in charge of it through December 1997, is an 
integrated environment that involves our operations officers, 
technical collection officers from other agencies, and analysts 
from the Directorate of Intelligence as well as some analysts 
from other parts of the Intelligence Community. Operational 
security there has been maintained from the early days of the 
Center back in the mid-1980's through today by making sure that 
all those in the Center have access to the information they 
need to conduct their work, what we call horizontal 
compartmentalization rather than isolating--the analysts are 
going to have this slice of information and operators have that 
slice of information.
    I believe that same philosophy can and should be extended 
to TTIC. TTIC itself does not have an operational role and it 
is important for legal and privacy and chain of command reasons 
to separate the two. But it is perfectly possible for them to 
work together in a secure environment with appropriate caveats 
for access to information. We have done that. We have a 15, 20-
year track record now of having done that and I think it can be 
extended to the TTIC. I think that the same applies in the work 
that we have seen with the FBI.
    So I am always concerned about operational security, but I 
believe we have the experience for dealing with this.
    Senator Akaka. I am glad we are raising these questions 
because, if need be, I am sure we will find an answer to some 
of these questions.
    Mr. D'Amuro, in your testimony you have indicated that 
there are now 66 FBI joint terrorism task forces around the 
country. Are these all up and running, and are they all fully 
staffed? Do they also include local officials?
    Mr. D'Amuro. Yes, Senator, I believe--the JTTF is not a new 
concept to the Bureau. It was created 23 years ago in New York 
City. At the time a lot of people thought that this was not 
going to work. It turned out to be visionary. It turned out to 
be a very effective tool, and the reason it is so effective is 
by including other Federal, State, and local agencies on the 
JTTFs. So the 66 JTTFs that I have identified in my testimony 
are up and running. What we are trying to do is get some 
critically needed training for them so that they know how all 
of these JTTFs are supposed to operate.
    We had, at the time of September 11, I believe it was 
approximately 26 JTTFs across the country. So by expanding to 
66 now you can see the need for training those JTTFs and making 
sure they understand how they are supposed to operate. They do 
include State and local participants. We have received over 
1,200 requests for security clearances. As of this date I 
believe we have 936 approved at the secret level and we are 
working to try to resolve the rest of them.
    So they are the shining star, the critical piece of the 
Bureau's counterterrorism mission. It is how we not only fuse 
intelligence but it also gives us the ability to go out and act 
upon that intelligence, to be able to disrupt or prevent 
terrorist acts as you saw, as I mentioned earlier, in Buffalo.
    Senator Akaka. Thank you. My time has expired. May I just 
ask a question of Secretary England?
    Chairman Collins. Certainly.
    Senator Akaka. Because I mentioned cruise ships, are cruise 
ships considered part of the critical infrastructure?
    Mr. England. Senator, I am not sure they are critical 
infrastructure. They are certainly important in terms of 
protection. But what we will do as part of our department--keep 
in mind we have only been in place for a month so far, but one 
of our functions will be to identify the most critical 
infrastructure in the country and to prioritize. So that has 
worked under the Office of Homeland Security, but that will 
expand greatly under the Department of Homeland Security. So it 
will be part of the total infrastructure. It will be studied, 
examined, and prioritized.
    Senator Akaka. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you very much. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman. First, a 
comment directed to Mr. D'Amuro. As a former local elected 
official I appreciate the work of the JTTFs and believe that 
they really are a wonderful model and work very well. But my 
concern is this and I hope you will reflect on it. I think they 
do a very good job of collecting. You talked about that, of 
collecting data. I still think there are real challenges in 
terms of--it is the question that Madam Chairman raised about 
information getting back to those at the local level.
    In addition to chiefs of police, there are mayors who are 
held responsible for knowing what is going on and there is a 
question about whether they are contained in the security link. 
Do they have the relevant clearances? What can they be told? So 
much of what we are talking about depends upon public 
confidence, and the mayor at the local level is the one who is 
supposed to know what is going on. If you have a lack of 
understanding, of someone in the dark at the local level, it 
undermines public confidence and I think has a very 
debilitating effect on folks that--moms and dads in our 
community.
    So I do hope that we can go back and you can look at how we 
do a better job connecting with mayors, with folks at the local 
level, not just in the receipt of the information which we do a 
very good job now, I believe, of integrating local law 
enforcement with Federal authorities at the JTTFs. But it is 
getting it back, and that is still, I think, an honest concern 
and I would hope that you would reflect on it and figure out 
some way to deal with it.
    Secretary England, I appreciate your clarifying so we all 
understand the TTIC, they are not an agency. It is a center. My 
question for you was, and I think I heard you respond somewhat, 
does Homeland Security expect to create its own operational 
intelligence unit? If it does, how do you then deal with this 
issue again of duplication? We have the FBI that focuses on the 
local level. They have an operational unit. We have CIA--have 
operational units. Are we creating another operational unit in 
government that will then work with TTIC?
    Mr. England. Senator, I am not quite sure what you mean by 
an operational unit. We will have a separate analysis center to 
interpret the data that takes place outside in the TTIC. So the 
purpose of the TTIC, I mean, the benefit to us is that we 
rapidly stand up to a capability where we are part of the TTIC, 
so we participate. Think of it as part of the Department of 
Homeland Security, just like it is a part of all the other 
agencies working together with access to all the data. So we 
will have all the access that all the other agencies have to 
intelligence data.
    We will have some additional analysis people and assessment 
people that are not in the TTIC that help relate that data to 
our infrastructure and also, frankly, to be able to discuss it 
with myself, Secretary Ridge, and other people.
    Also, by the way, the question about dissemination of data, 
we do have to have processes in place to make sure that we do 
disseminate data to State and local first responders, and we 
are working with FBI in that regard right now. That is a very 
critical part of this also, to understand what data needs to be 
passed down throughout America.
    Senator Coleman. Again, while I strongly support and 
understand the importance of trying to make sure we have a more 
efficient sharing of information and analysis of information, I 
would just again then raise the question, we have FBI out 
there. They do the analysis. We have CIA out there. Please, 
please, please let us make sure that we do not create another 
layer of intelligence analysis. Certainly you and Secretary 
Ridge need to have information analyzed brought to you so you 
can respond, but I just raise that concern again.
    Mr. England. You are absolutely right, sir. I can assure 
you that--the intent is just the opposite, to make sure we take 
full utilization of the TTIC.
    Senator Coleman. Following up then again with the 
responsibility that you and Secretary Ridge have to analyze--to 
receive information of the threat analysis and then articulate 
that to the public, is it the sense that--I am trying to 
understand its function here. Is the TTIC the agency then that 
will provide the underlying information and you then take that 
information and then come to a conclusion that we are at yellow 
or at orange and here is where we go from here?
    Mr. England. That will be one of the fundamental analysis 
base that we will use to assess the threats; that is correct, 
Senator. So that is the all-source data that will be available 
to us, and again, to the other agencies. So we will analyze 
that data, have full access to that data, and we will help 
assess that data along with the other agencies.
    We will analyze, but largely we will assess. That is, what 
is the effect of that data on infrastructure and across 
America? What is the effect of that data? So when people talk 
about an analysis center, in my judgment it is really both 
analysis and assessment. We will do more assessment, less 
analysis, but we will have analysis people located within the 
center.
    Senator Coleman. Thank you, Mr. Secretary. Finally, we are 
entering--these are works in progress. We have entered a 
strange new world, unfortunately, post-September 11. Though we 
always like to take pride in our ability to do things the best, 
and I believe that is true about America, there are certainly 
other countries that have been dealing with these types of 
situations longer than we have. For us so often it was looking 
at foreign terrorist threats and now we have to understand and 
reflect upon the domestic terrorist threats, and the 
integration of foreign sources and domestic sources. Are there 
other models out there? Are there folks, Israel, or some other 
places that have dealt with this before, that are helping us 
shape this, or is this simply kind of a whole cloth concept 
that we have put together? Mr. Wiley from the CIA or anybody on 
the panel?
    Mr. Wiley. Senator, there certainly are models and Israel, 
the United Kingdom, our partners in Western Europe to one 
degree or another have attempted to do this. No one, I think, 
has faced quite the challenge that we do in terms of scale; the 
size, the openness of our society are all things that 
contribute to a different environment. But both through the 
Intelligence Community, and I know the law enforcement 
community, my friend Ambassador Black in his exchanges, we are 
very much interested in drawing lessons from others and 
incorporating that in all facets of it, and I am sure the same 
is true for the Department of Homeland Security.
    Mr. D'Amuro. I will just add to that, if I could, Senator. 
We have a very robust liaison program with a lot of different 
intelligence and law enforcement services across the world. The 
United States poses a unique situation as Winston has said. We 
have a Constitution. We operate within the Constitution. I 
think the beauty of the system that we have, in particular 
talking about the FBI, is that we have both the intelligence 
tools and the law enforcement tools in the same bag.
    I do not mean to go back to Buffalo again but it is a prime 
example of how we are able--that was a pure intelligence 
collection operation. When we learned that one individual was 
overseas, we were able to dispatch individuals to interview 
this person. And when we learned through that interview that 
there were legal statements, legal problems with some of the 
statements that he made, that actual crimes had taken place, 
the Buffalo division within 24 hours was able to act very 
quickly and round up those individuals that we had under our 
intelligence investigation, and get them off the street and 
prevent a possible terrorist event.
    So the beauty of having both the intelligence tools and the 
law enforcement tools in an organization that has operated 
within the Constitution, I think, is one of the benefits of our 
systems.
    Senator Coleman. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator Coleman. Senator 
Levin.
    Senator Levin. Thank you, Madam Chairman.
    My major concern has been and continues to be, where will 
the principal responsibility for analyzing foreign intelligence 
rest? This has been a subject that Senator Coleman and I think 
others have made reference to today, and I believe our 
Chairman, as a matter of fact, specifically asked that question 
about the relationship between the CTC and TTIC. I am not 
satisfied with what I understand the answers were. I am sorry I 
could not be here to hear them in person but the report of 
those answers leaves me very unsatisfied.
    It is a huge problem. There is a lot of information that we 
received prior to September 11 that was not analyzed, that fell 
through cracks. If we are going to diffuse responsibility 
instead of fuse it, we are going to have confusion instead of 
focused responsibility to analyze--and I use that word 
precisely--foreign intelligence. Not domestic intelligence yet. 
I want to talk about intelligence.
    Now on January 17--and by the way, one other thing: We will 
be lucky if we do this well once. We have got 17,000 pieces of 
intelligence coming into the CTC a week; 17,000 pieces of 
intelligence. The CTC produces 300 outgoing intelligence 
products a month, and they have got almost 300 analysts.
    We have got to understand precisely the relationship 
between TTIC and CTC. We cannot blur that responsibility. We 
have got to focus it so that we can hold folks accountable if 
there are failures. Otherwise, CTC will say that was a TTIC 
responsibility, and TTIC will say that was a CTC 
responsibility, and we cannot have that situation.
    I asked Secretary Ridge, on January 17 when he was before 
the Committee, the following question, will the principal 
responsibility to analyze foreign intelligence from all sources 
remain in the CTC? His answer was, that is correct.
    Now I think the statute itself is unclear on that issue. 
The homeland security statute is unclear because it creates a 
new Undersecretary for Information Analysis and Infrastructure 
Protection inside the Homeland Security Department and gives 
that Undersecretary the responsibility to assess, which is what 
Deputy Secretary England just made reference to, receive, and 
analyze law enforcement information, intelligence information 
and other information from agencies of the Federal Government, 
State and local government agencies, and to integrate such 
information in order to identify and assess the nature and 
scope of the terrorist threats.
    Given that language, I asked Secretary Ridge whether or not 
there is then confusion. Where is the principal responsibility 
to analyze those 17,000 pieces of foreign intelligence that 
come in every week? Is it going to be CTC or is it going to be 
Homeland Security? Now I ask the same question about TTIC 
because now we not only have a CTC which apparently is going to 
proceed unencumbered that is supposed to analyze all foreign 
intelligence from all sources, and has FBI sitting there, and 
has the Coast Guard sitting there, and all the other agencies 
at the CTC. And now we are going to have Homeland Security that 
has a statutory responsibility to analyze and now a TTIC 
responsibility, apparently in the CIA, to analyze what seems to 
me to be the same information coming from all sources as the 
CTC is analyzing.
    We have got to be clear in statute and in practice where 
this responsibility lies and I repeat what I said, if we do 
this well once we will be very lucky. This is a huge challenge 
to put together 17,000 pieces of intelligence a month that come 
in, and to analyze it, and to connect the dots. The idea that 
we might do it twice or three times to me is wrong in terms of 
accountability and it is wrong in terms of responsibility and 
it is wrong in terms of practicality.
    Now let me start with you, Deputy Secretary England. Is the 
principal responsibility to analyze foreign intelligence going 
to remain in the CTC?
    Mr. England. Yes, sir.
    Senator Levin. Then how is that different from the 
responsibility which we are giving to TTIC to do the analysis 
of all intelligence, foreign and domestic apparently? How is 
that different?
    Mr. England. Senator, we will basically collate resources 
so that all the data is available in one place.
    Senator Levin. Is that TTIC or CTC?
    Mr. England. The TTIC itself will have access to all the 
source data.
    Senator Levin. I know they will have access. Who is 
responsible to analyze all this intelligence coming in? Will it 
be TTIC or CTC?
    Mr. England. My judgment is it will be CTC for the foreign 
intelligence. For domestic intelligence it will be the FBI. But 
in this facility we will then have people available with access 
to this data, access to conclusions that we can then analyze 
further, if necessary, because of data we may know in terms of 
homeland security, threats to America, whatever. So we would 
have in that facility access to ask additional questions, 
understand further, make additional assessments, etc. So it is 
a resource available for our analysts to be part of it, and 
also our people to assess that----
    Senator Levin. Wait a minute. For our analyst to be--who is 
our?
    Mr. England. Department of Homeland Security will have some 
analysts in this facility, so we can understand the data in 
terms of our mission, which is to assess that data relative to 
threats to America.
    Senator Levin. I understand the assessment and where it 
belongs and where it is. I just want to be real clear. What you 
just said is, principal responsibility to analyze information, 
intelligence relative to foreign intelligence will remain in 
the CTC; domestic intelligence will remain in the FBI. The 
reports from both of those entities will come to TTIC to do 
whatever it wants to do with the reports that come in from both 
CTC and from FBI; is that correct?
    Mr. England. That is correct. That is my understanding.
    Senator Levin. I think that is fine if it is clear, but I 
think we all have to be real clear now on where that 
responsibility lies and I would like to see either an executive 
order, or I would like to see a decision by the agencies 
involved, a joint decision placing the principal responsibility 
exactly where you said. And if it is not there, where is it? We 
cannot have unfocused location of the analysis responsibility 
of foreign intelligence and domestic intelligence. We cannot 
blur it. We cannot duplicate it. We will be making a tragic 
error if we do. Instead of fusing we will be confusing, and I 
think that is----
    Mr. England. Senator, you and I agree on this. This is not 
an issue at all. I concur completely with your approach. I 
believe my colleagues do also. That is the approach that we are 
using for TTIC, so I do not believe we have any disagreement 
here at all.
    Senator Levin. TTIC becomes a customer essentially. It has 
got the ability to do additional analysis, I understand, and it 
has a right to access anything it wants, I understand. But it 
is basically a customer of CTC and FBI when it takes the 
reports of foreign intelligence from CTC, domestic intelligence 
from FBI, fuses those reports, does whatever it wants with 
those reports, and then makes its own assessments. If it wants 
additional analysis it has the power to do additional analysis 
on its own. It can, I presume, task FBI or CTC to do additional 
analysis.
    Mr. England. Yes.
    Senator Levin. But the principal responsibility is where 
you just identified. Is that your understanding as well, Mr. 
D'Amuro?
    Mr. D'Amuro. Yes, Senator, it is. I will try to explain it 
real quickly and I know Mr. Wiley may want to jump in on this. 
The mission of the TTIC is to fuse threat information--to 
provide one-stop analytical products for threat analysis to law 
enforcement, the Intelligence Community, everyone. It is an 
interagency function. All the agencies are at the table to 
include DOD, Homeland Security, the FBI, and the CIA. They will 
fuse that product and provide an analytical product with 
respect to threat analysis.
    Mr. Wiley. I think Mr. D'Amuro has it exactly right, 
Senator. I think that, Senator, before you came in I said that 
one of the things about TTIC is that our intention is to build 
on those things that have been working well. The close 
collaboration between collectors and analysts, both within the 
agency at CIA and between CIA and the FBI, because I think that 
is one of the things that has been working well. We want to do 
precisely what you are talking about, is bring the analysis of 
foreign intelligence, whether it is collected overseas or 
collected inside the United States, together in a seamless 
fashion, just as you are saying. TTIC will be in a position--by 
virtue of having CIA people, FBI people, other Intelligence 
Community people, DHS people together--in a position to do 
that. But I cannot be all things on day one, and will have to--
--
    Senator Levin. No, not on day one. Is its goal to duplicate 
CTC?
    Mr. Wiley. Its goal is not to duplicate CTC.
    Senator Levin. It is to take the product of CTC and FBI and 
to then act--to put those products----
    Mr. Wiley. Over time, Senator, I believe that a TTIC, if we 
make it work right, will absorb some of those analytic 
production responsibilities from CTC and from the FBI to create 
that single fused product that we have been talking about.
    Senator Levin. Is that the ultimate goal?
    Mr. Wiley. Yes, sir, I believe so.
    Senator Levin. That is different then from what I was just 
told.
    Mr. Wiley. I think it should be.
    Senator Levin. I am not saying it should not. By the way, 
it is fine with me, so long as it is clear. But now that is 
very different from what Secretary England said.
    Mr. England. Senator, it is going to take time for this to 
evolve. This is still--I mean, we now have, I believe, a 
working concept, a structure of how we can go forward, greatly 
improve from where we are today. How this evolves I think is 
another question. We are a long way to get to that 
``evolutionary stage'' and we are going to have--it takes a 
period of time just to stand up this capability. So while Mr. 
Wiley may be right, I think there is a lot of discussion before 
we ever get to that point in time.
    Mr. Wiley. I agree.
    Senator Levin. Is TTIC going to be represented at the CTC?
    Mr. Wiley. It will be cheek by jowl with----
    Senator Levin. Will it be sitting at that analytical table 
with the CTC? We have FBI there. We have Coast Guard there. We 
have all these agencies, part of CTC, sitting at the table. My 
specific question is, will Homeland Security and--first, will 
TTIC be at that table?
    Mr. Wiley. Yes, sir.
    Senator Levin. Will Homeland Security be at that table?
    Mr. Wiley. Yes, sir. And vice versa. The point is that we 
want to----
    Senator Levin. That is fine.
    Thanks, Madam Chairman.
    Chairman Collins. You are welcome, Senator Levin. I want to 
follow up on the issues that Senator Levin just raised.
    Secretary England, I am trying to get a better sense of 
what the role of the Information Analysis and Infrastructure 
Protection Directorate will be once TTIC is created. Will it 
conduct any analysis of raw intelligence or will it merely be a 
consumer of analysis that is produced by the new center, the 
FBI, and the CIA?
    Mr. England. The IA organization, part of the IA 
organization, information analysis, will physically be located 
in the TTIC. We will have a separate analysis center. An 
analysis center will be in the TTIC, and it will have access to 
all the data available in the TTIC. Now we will also, in 
addition to people who are located in the TTIC, we will have 
some number of people who will also do analysis, for the 
understanding of the Secretary, myself, etc. I mean, we are not 
there. How do you interpret the data, etc.? But we will also 
have an assessment group and the assessment group will 
determine what the effect of that analysis is, what that means 
in terms of our infrastructure; to assess that it in terms of 
what you do across America in terms of protection.
    So it is both analysis and assessment. But we will have a 
separate analysis group, per se. We will also rely on the TTIC 
and our representation in TTIC.
    Chairman Collins. A related issue here which I raised in my 
opening statement is where the new center should be located. 
Many would argue that when Congress created the new Information 
Analysis Directorate at the Department of Homeland Security it 
did so to try to create an intelligence fusion center. One of 
the witnesses at our hearing last week, James Steinberg, 
recommended that the new center be located at the Department of 
Homeland Security. He said the new department is supposed to be 
the hub of all homeland defense efforts and that it is the 
natural place where the fusion of terrorist analysis should 
take place. It is also the one department responsible for 
protecting our borders and our critical infrastructure.
    I guess I will ask Mr. Wiley this question first and then 
go to Secretary England. Why was the decision made to locate 
the new center under the supervision of the Director of Central 
Intelligence rather than the Secretary of Homeland Security?
    Mr. Wiley. Senator, I think that the key feature of having 
the threat integration center report directly to the Director 
of Central Intelligence is that it is doing precisely the 
fusion of intelligence, whether it is foreign intelligence or 
domestically collected foreign intelligence and law enforcement 
information. The Director of Central Intelligence has a 
responsibility for assessment of foreign intelligence, and the 
Intelligence Community has the overwhelming share of people 
with experience in doing that.
    With due respect to Mr. Steinberg, I think that doing the 
analysis and assessment part under the leadership of the 
Director of Central Intelligence and providing that to the 
Department of Homeland Security to merge with the vulnerability 
assessments and to have a responsibility for taking action is 
the right model. I think that asking the Department also to 
take on the intelligence assessment capability as well as the 
vulnerability work is asking it to do more than it needs to. I 
think that that is the rationale between the two.
    Chairman Collins. My concern is, how are we going to 
prevent the new center from just becoming a creature of the 
CIA? The House Intelligence Committee issued a staff report 
that found that oftentimes the DCI intelligence centers, 
including the Counter Terrorist Center, become solely CIA 
centers. Whenever you locate an agency or a new entity on the 
grounds of the CIA, which is the initial plan, and report to 
the CIA Director, how is that going to overcome the cultural 
differences that have impeded the relationship between the CIA 
and the FBI? If it were located in the new Department of 
Homeland Security, would that not send the right signal as far 
as overcoming these historic barriers?
    And if I could just add one thing. In your comments you 
referred to the brute force approach to sharing and said it is 
working, but it still is requiring brute force.
    Mr. Wiley. Just on the brute force issue, whether a new 
department is located at DHS, at the CIA, at the FBI, or 
anyplace else, if you are collocating people and you are 
institutionalizing a process, it will reduce the amount of 
brute force that is required. So I do not think the location, 
the particular location makes a difference on the issue of 
brute force.
    I think on the issue of its physical location, in order to 
get started quickly you really needed to be, I believe, in one 
of two places where there is already a framework of analysts 
working the counterterrorism problem to support that. That, in 
my view, left it to either the CIA compound or the FBI building 
downtown. There you have a framework to be able to get started 
quickly.
    Institutionally, this chart that you provided us reflects 
that the TTIC does not report to the Director in his capacity 
as head of the CIA but in his capacity as the head of the 
Intelligence Community, as I do, frankly. That itself sets it 
apart from CIA. CTC is a center that reports to the DCI through 
the Directorate of Operations. This is a direct-report to the 
DCI.
    Its physical location at the CIA headquarters compound 
cannot be denied, but it will not be collocated with CTC, and 
there are other non-CIA elements that are resident in that 
building: The National Intelligence Council, the Community 
Management Staff, large portions of NIMA, the imagery and 
mapping agency, are located in that building. Certainly the 
majority of the building is a CIA building, but it is not 
exclusively a CIA building. While it presents a challenge, I 
think strong leadership and the commitment of all of the 
partners to put people and contribute to the leadership will 
mitigate against that. In the long run, the point of 
collocation where CTC, the FBI's Counter Terrorism Division, 
and TTIC are collocated in an off-site facility I think 
mitigates that problem completely.
    Chairman Collins. Secretary England, what is your response 
to those experts who believe that this new center would be most 
effective if it were located within the new Department of 
Homeland Security?
    Mr. England. Senator, I would not recommend that. My own 
experience with large organizations--first of all, TTIC is for 
threat data, so this is threat analysis and the expertise of 
threat analysis lies with other agencies, not with the 
Department of Homeland Security. We will not be the dominant 
organization in the TTIC. We will have equal representation 
there.
    So while we will be able to participate in some of the 
source threat analysis, that is not our key mission. Our key 
mission is to make sure that the threats are analyzed 
appropriately, that data is available to us, that we can then 
do additional analysis if we have to, want to, etc. But it is 
to do vulnerability analysis, understand the infrastructure and 
how those threats may relate to vulnerability of our 
infrastructure and our people across the country.
    So I, frankly, think it would be very difficult for the 
Department of Homeland Security to take on a task as large as 
threat analysis that would come into this center and be able to 
assess all that appropriately. That would be a very large 
organizational step for us to take, particularly at this time 
and probably for years to come. So I, frankly, do not feel that 
would be appropriate for us today. I was delighted with this 
approach to have this fusion center put in place because it 
does enable us to do our mission much better.
    So again, as I said in my first comment to you, we endorse 
this approach. It makes us an equal player in this arena of 
threat analysis. But I certainly do not feel like we could 
actually manage that operation.
    Chairman Collins. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman. I wanted to 
follow up on the questions raised by Madam Chairman and the 
distinguished Senator from Michigan.
    Secretary England--and by the way, we are all in agreement 
here. We want this to work. We want it to be effective. We 
understand it is a work in progress. We have got to keep coming 
back to that, it is a work in progress, so we are going to need 
some flexibility here. But I would question--I understand that 
your principal mission is not threat analysis, but I suspect in 
Homeland Security that you are going to be taking a lot of 
information that is not going to be yours--you are not creating 
it. That is why I asked the question about whether you created 
an intelligence analyst unit. The answer was, not creating; you 
have some folks who will do that but you are not going to 
duplicate the work that is done by CTC, you are not going to 
duplicate the work that is done by the FBI.
    But if your principal function is to fuse this--to take the 
information that has been fused, that has come together, and 
then to articulate that, take threat analysis, and then to work 
with the American public on that to make sure that we are 
prepared, that we understand, I would suggest that it would 
make sense. My sense is that it would make sense for the 
Department of Homeland Security, again not to create a new 
analysis, not to say that is your principal function, but to 
have the kind of direct access from this unit to then figure 
out what you have got to do with it.
    If you look at the chart that Madam Chairman established, 
laid out before you, I mean organizationally what you have is 
TTIC then reporting to the head of the CIA--so there is a step 
between all that information that is gathered, at least 
structurally, and the Department of Homeland Security. It would 
appear to me that there should be a much more direct connection 
between you and TTIC.
    Mr. England. Senator, we are a full partner in TTIC. TTIC 
is part of the Department of Homeland Security, the same as it 
is part of all the other agencies. So we are part of TTIC. Some 
of our people will physically reside in TTIC. So data does not 
go up and across and down. Our information analysis people are 
part of TTIC, so we reside in that location. So this is--in 
fact, we call this a joint partnership and that is what it is. 
It is a joint partnership.
    My view is, as long as this partnership works effectively, 
and I believe it can work effectively and will work 
effectively, who it reports to is not very important frankly. 
To take existing structure in place and build it is much easier 
than the Department of Homeland Security trying to build a 
whole new structure. So this is a partnership. We do have 
direct access to all the information and we will be able to do 
our job appropriately.
    Senator Coleman. Secretary England, again I want to get 
back to this concept of work in progress. I appreciate the 
comment of who it reports to right now on paper. I do not think 
that is very important either, if it does not interfere with 
the most effective operation of TTIC and what it is supposed to 
do in terms of assessing threats to our country and dealing 
with those threats.
    I would hope then as we go about our work of bringing these 
pieces together and we are doing--again, we are living in this 
new world. As we do that, for it to have the flexibility along 
the way to say this may work a little better and then to come 
back to us at another point in time and say, we figured out a 
better way to do it, and this is what we are going to do. So I 
want you to have that flexibility. I support that concept and 
would hope that you keep that in mind, that you are not tied to 
a structure that has been put together very quickly, under 
difficult circumstances, and in the end we have got to do the 
right thing rather than what we may have thought the right 
thing was at another point in time.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator. Senator Levin.
    Senator Levin. Just one question, Secretary England. You 
said that TTIC is part of Homeland Security?
    Mr. England. I say it is, I guess, rhetorically. We are 
part of--it is a partnership. So when I say it is part of it, I 
mean we are there. It is also part of the FBI, it is part of 
all the agencies that make it up. It was merely to emphasize 
that our people are there along with all the other people who 
make this up. So it is indeed a partnership.
    Senator Levin. But the head of TTIC is appointed by the 
Director of Central Intelligence; is that correct?
    Mr. England. Right, with the advice----
    Senator Levin. With the advice and so forth of the other 
agencies. But it is appointed by the Director of Central 
Intelligence, is located at Central Intelligence, and has 
people represented from all the other agencies including yours.
    Mr. England. Yes.
    Senator Levin. That is very much like CTC. It is part of 
the CIA, appointed by the Director of the CIA, has 
representatives from the Department of Homeland Security, the 
FBI, Coast Guard, you name it. It sounds to me that this is 
very similar in terms of its structure to the CTC. So I like 
the idea of things evolving. That is fine, and it may be over 
time that it belongs in a different place. I am less interested 
as to where it is, frankly, than that its responsibility is 
clear. That to me is the most important thing, and that is my 
concern, is that it be clear right off the get-go as to what 
its responsibility is, regardless of where it is or where it 
ends up 2, 5, or 10 years from now.
    I just think there is a lot of work that need to be done to 
identify that responsibility to analyze intelligence as to 
where that is, because right now statutorily it is in three 
places. The analytical responsibility is in three places on 
foreign intelligence; CTC, Homeland Security, and now TTIC. I 
do not think that is healthy. I think it allows people to, as 
we saw before September 11, it will allow people to duck 
accountability. There was enough ducking of accountability, in 
my judgment, for the failures that existed before September 11.
    So I would just ask you--I cannot do this on behalf of the 
Committee. Obviously, the Chairman has that exclusive 
responsibility, but at least this one Senator would be a lot 
more comfortable if somehow or other there was a statement as 
to the primary responsibility for analysis of foreign 
intelligence, domestic intelligence, as to where that is going 
to rest, and what is the relationship of TTIC to those 
analyses--and that be in writing.\1\ I just think that there is 
some fuzziness here which could be unhealthy.
---------------------------------------------------------------------------
    \1\ The response from Mr. Wiley appears in the Appendix on page 73.
---------------------------------------------------------------------------
    Chairman Collins. I would second, as the Chairman of the 
Committee, Senator Levin's request in this regard. I do think 
we need more definition on who is going to do what. The 
Department of Homeland Security's underlying law calls for it 
to analyze. That is part of the law. So I do believe we need 
more definition. I do recognize that the Center is a work in 
progress, but I would ask the witnesses to come back to us with 
a document that would define with more specificity the 
responsibilities of the components and the existing--the 
Counter Terrorism Division at the FBI, the Counter Terrorism 
Center at the CIA, the Information Analysis Directorate at 
Homeland Security. I would like to see more definition in 
defining the responsibilities of those three units and how the 
new center interacts. The goal is fusion not confusion. But 
when I look at the chart and plot the new center in, I am 
concerned about duplication, accountability, and 
responsibility. So I hope as you further work out the details 
of the center you would get back to us.
    Senator Levin, did you have something more on that?
    Senator Levin. No.
    Chairman Collins. Senator Coleman.
    Senator Coleman. No.
    Chairman Collins. Before I adjourn the hearing I just want 
to bring up one final issue that I alluded to in my opening 
statement, and that is the dangers to privacy rights of 
combining law enforcement functions with intelligence gathering 
and analysis. Several, or some of our witnesses at our previous 
hearing raised the issue of whether this new center poses a 
threat to privacy rights. We have seen the controversy over the 
total information awareness program at the Department of 
Defense. The new center potentially will have access to huge 
databases of its component agencies--the good news is, for the 
first time we will be bringing all this information together. 
The bad news is, for the first time we will be bringing all 
this information together.
    Mr. Wiley, as the chair of this working group, how is the 
group going to ensure that the creation of this new center with 
its access to unprecedented amounts of information will not 
infringe upon the privacy rights of law-abiding citizens?
    Mr. Wiley. Madam Chairman, from the beginning the concerns 
you have expressed were an explicit part of our discussions in 
making sure that the lines of responsibility, lines of 
authority, the separate authority for conducting collection 
operations, whether overseas or domestic, remain separate from 
the authorities vested in the TTIC. I can only tell you that 
from day-one, we will continue at the Agency, at the Bureau, at 
Homeland Security to make sure that the structures we put 
together are in compliance with the laws, the executive orders, 
and sensitive to the issues of making sure that privacy rights 
and civil rights of law-abiding citizens are not violated. It 
is a fundamental concern right from the beginning and the very 
structure of the Center recognizes that by separating it from 
the operational components of both the FBI and the CIA.
    Chairman Collins. Mr. D'Amuro.
    Mr. D'Amuro. Senator, Winston is correct. This is not--the 
TTIC is focal point for the analysis of information that has 
been collected. The information that we will be collecting 
domestically will be overseen by the inspector general from the 
Department of Justice, it will be overseen by the FISA court. 
We have numerous Attorney General guidelines and directions 
that protect the civil liberties of the citizens of this 
country. The collection process will not change. We will use 
those guidelines, we will use those laws for our collection 
domestically. The role of the TTIC is simply the analysis of 
that collection. It is not an instrument that will go out 
operationally and collect on its own.
    Chairman Collins. There is no new collection authority; is 
that correct?
    Mr. D'Amuro. That is correct.
    Chairman Collins. Secretary England.
    Mr. England. In addition, Senator, let me add, Madam 
Chairman, that we also have a statutory obligation in terms of 
privacy. We do have, will have a privacy officer as part of 
this. That privacy officer will have a role, so we will have at 
least some degree of oversight to allay those concerns. But I 
do not believe that there will be a real concern there, but 
nonetheless, we will have that oversight function within the 
Department of Homeland Security.
    If I could add one more thing before we leave?
    Chairman Collins. Certainly.
    Mr. England. I know you have a very complex chart here but 
I would like to comment that there is actually more arrows that 
belong on this chart, Senator, only because of your comment. It 
turns out that the source data is available here at the 
information analysis. It goes directly--the analysis charts. So 
rather than linking here at the Secretary level, it really does 
link the IA/IP organization directly with the TTIC. I think 
perhaps that will clarify some of the issues we discussed 
earlier.
    Chairman Collins. Thank you. I want to thank our witnesses 
for appearing today. Your contributions are very valuable. We 
look forward to hearing back from you as you continue to refine 
the President's plan.
    The record will remain open for 15 days for the submission 
of any additional questions. I want to thank my staff for its 
hard work on this series of hearings. This hearing is now 
adjourned.
    [Whereupon, at 11:38 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


  RESPONSE TO SENATORS LEVIN AND COLLINS TRANSCRIPT REQUEST FROM MR. 
                      WILEY REFERRED TO ON PAGE 69
    The Terrorist Threat Integration Center (TTIC) is currently working 
collaboratively across the Federal Government to integrate terrorism 
information and analysis to provide a comprehensive, all-source-based 
picture of potential terrorist threats to U.S. interests. In this 
regard, TTIC works closely with the FBI's Counterterrorism Division, 
DHS's Information Analysis and Infrastructure Protection directorate, 
the DCI's Counterterrorism Center, and the Defense Intelligence 
Agency's Joint Intelligence Task Force--Counterterrorism, among others. 
In fact, all of these organizations are represented in TTIC and work 
together, on a daily business, to carry out the mission of their parent 
organization as well as that assigned to TTIC by the President: to 
enable the full integration of U.S. Government terrorist threat-related 
information and analysis, collected domestically or abroad.
    As a relatively new entity, and one that is unique in the Federal 
constellation, misperceptions are still common. One common 
misperception is that TTIC is a part of the Central Intelligence 
Agency. In actual fact, TTIC does not belong to any department or 
agency. It is a multi-agency joint venture composed of partner 
organizations including the Departments of Justice/Federal Bureau of 
Investigation, Homeland Security, Defense, and State, and the Central 
Intelligence Agency. TTIC reports to the Director of Central 
Intelligence, but in his statutory capacity as the head of the 
Intelligence Community. TTIC does not engage in any collection 
activities and it does not engage in operations of any kind. Unlike the 
FBI's Counterterrorism Division, the DCI's Counterterrorism Center, and 
the Department of Homeland Security, all of which have an operational 
or collection element, TTIC is focused on integrating and analyzing 
terrorist threat-related information collected domestically or abroad. 
We defer to these other organizations to provide you a full explanation 
of their roles and responsibilities.
    While TTIC is still in its infancy, there is tangible evidence of 
the value of ``jointness,'' as embodied in the TTIC construct, and TTIC 
is making a difference in the war against terrorism. For example, TTIC 
analysis has contributed to informed decision making within DHS about 
the appropriate threat level for the nation. The TTIC-maintained 
terrorist identities database informs the national watchlisting process 
and according to the Homeland Security Presidential Directive-6, will 
soon serve as the single source of international terrorist identities 
information for the newly established Terrorist Screening Center. In 
addition, the TTIC-hosted joint information sharing program office is 
actively implementing the Information Sharing Memorandum of 
Understanding signed in March 2003 by Attorney General Ashcroft, 
Secretary Ridge, and the Director of Central Intelligence. Under the 
auspices of this program office, business processes are being re-
engineered to facilitate the flow of information throughout the Federal 
Government, but in particular, to the Department of Homeland Security. 
Specific issues being addressed at this time include establishing 
standards for tear lines, reaching out to non-Intelligence Community 
Federal departments and agencies, and rethinking reporting standards.
    As the national approach to combating terrorism and protecting the 
homeland evolves, TTIC will continue to carry out the mission assigned 
to it by the President: to enable the full integration of U.S. 
Government terrorist threat-related information and analysis, collected 
domestically and abroad--and TTIC will fulfill its mission in full 
coordination with partner organizations including the Department of 
Homeland Security, the Federal Bureau of Investigation, the Central 
Intelligence Agency, the Department of Defense, and the Department of 
State. We will keep you informed of our progress.

                  PREPARED STATEMENT OF SENATOR SHELBY

    Thank you Madam Chairman for calling this hearing today to examine 
the President's proposal to form the Terrorist Threat Information 
Center (TTIC). I also thank our panel for appearing before the 
Committee today. As a long time member of Senate Select Committee on 
Intelligence, I am particularly interested in the subject matter of 
this hearing.
    Madam Chairman, as you know, I worked closely last year with the 
Governmental Affairs Committee to help draft the provisions of the 
Homeland Security Act crating an intelligence fusion center within the 
Department of Homeland Security. While the eventual fusion center 
language signed into law represented a compromise, I felt confident at 
that time that the United States government had the statutory tools it 
needed to make our country a safer place.
    One of the main reasons for this belief is the placement of the 
fusion center within DHS itself. I have said many times before that the 
failure of the Central Intelligence Agency and others in the 
Intelligence Community (IC) to share intelligence information 
contributed significantly to the government's lack of preparedness for 
the September 11 attacks. I supported the formation of the independent 
fusion center located outside of the IC because I believed it would 
challenge the community's reluctance to share information. Creating a 
new and improved fusion center within the IC is a good think--because 
improvements are clearly needed--but I am concerned that if this is all 
that happens, it may allow the IC's institutional allergy to 
information sharing to remain unchallenged and the President's vision 
of a truly ``all-source'' fusion center to remain unfulfilled.
    If TTIC does not challenge the institutional and cultural barriers 
to intelligence sharing within the IC, our country will not be safer 
from the threat of terrorism. During the Homeland Security debate, I 
and my colleagues spent a considerable amount of time developing the 
idea of an intelligence fusion center for all government information on 
terrorist threats. I hope that the intelligence bureaucracies--whose 
job it will be to implement the President's vision for TTIC--permit the 
new center to develop into such an organization.
    Madam Chairman, unfortunately, we have heard little in the way of 
specific information from the administration about why TTIC is 
necessary and how it will result in a safer country. Only three months 
ago, the President signed into law legislation creating the Homeland 
Security Department, which will house the nation's first truly all-
source, government-wide intelligence fusion center. It is unclear to me 
then why the administration is pushing for the creation of a second 
intelligence fusion center before the DHS fusion center has even begun 
operations and had a chance to be evaluated. The new TTIC, I should 
emphasize, is by no means a bad idea. But I am concerned that, in 
practice, it will represent not the fulfillment of our broad vision of 
a ``one-stop shopping'' fusion center, but rather its co-opting by 
agencies who see real innovations in this regard as a threat to their 
bureaucratic ``turf.''
    The TTIC proposal raises a number of questions. For example, DHS's 
website states that the department ``will serve as a central hub of 
intelligence analysis and dissemination, working with agencies 
throughout the federal government such as the FBI, CIA, NSA, DEA, the 
Department of Defense and other key intelligence sources.'' How does 
this mission differ from TTIC's mission? Will the responsibilities of 
DHS and TTIC overlap? If so, is this the most efficient way to protect 
our country from terrorism or will it result in needless and wasteful 
duplication? Also, if TTIC is to be our nation's premier terrorist 
threat fusion center, how will DHS be able to attract and hire 
qualified information analysts? Moreover, if TTIC is really supposed to 
be the center for evaluation all U.S. Government information relevant 
to terrorist threats, how will it--as part of the Intelligence 
Community--fulfill this role within the IC's current rules regarding 
the handling of information related to ``United States persons''?
    Last, I would be remiss if I did not express my concerns about the 
President's decision to place TTIC under the supervision of the 
Director of Central Intelligence (DCI). As I have said many times 
before, I believe Director Tenet has played no small role in worsening 
the bureaucratic problems--including a powerful institutional 
resistance to information-sharing--that have long kept our Intelligence 
Community from being as capable and prepared as Americans desperately 
need it to be. I question whether the President's vision of a powerful 
and effective TTIC will be well served by putting this DCI in charge of 
the premier terrorist threat fusion center in the U.S. Government.
    Madam Chairman, while I have a number of concerns about TTIC, it 
should be noted that I am not necessarily opposed to it at this time. I 
do believe, though, that Congress needs more information in order to 
evaluate TTIC. It is my understanding that it is the administration's 
position that Congressional approval is not needed to create TTIC. 
While this may be legally true, Congress will be involved with TTIC 
through its oversight responsibilities of the Intelligence Community. 
Nothing, moreover, prevents Congress from stepping in to structure TTIC 
by statute, as occurred with the Department of Homeland Security 
itself. I therefore strongly urge the administration to keep an open 
line of communication with the relevant congressional communities.
    I thank you Madam Chairman for the opportunity to address the 
Committee today and look forward to hearing from our panel.

[GRAPHIC] [TIFF OMITTED] T6773.001

[GRAPHIC] [TIFF OMITTED] T6773.002

[GRAPHIC] [TIFF OMITTED] T6773.003

[GRAPHIC] [TIFF OMITTED] T6773.004

[GRAPHIC] [TIFF OMITTED] T6773.005

[GRAPHIC] [TIFF OMITTED] T6773.006

[GRAPHIC] [TIFF OMITTED] T6773.007

[GRAPHIC] [TIFF OMITTED] T6773.008

[GRAPHIC] [TIFF OMITTED] T6773.009

[GRAPHIC] [TIFF OMITTED] T6773.010

[GRAPHIC] [TIFF OMITTED] T6773.011

[GRAPHIC] [TIFF OMITTED] T6773.012

[GRAPHIC] [TIFF OMITTED] T6773.013

[GRAPHIC] [TIFF OMITTED] T6773.014

[GRAPHIC] [TIFF OMITTED] T6773.015

[GRAPHIC] [TIFF OMITTED] T6773.016

[GRAPHIC] [TIFF OMITTED] T6773.017

[GRAPHIC] [TIFF OMITTED] T6773.018

[GRAPHIC] [TIFF OMITTED] T6773.019

[GRAPHIC] [TIFF OMITTED] T6773.020

[GRAPHIC] [TIFF OMITTED] T6773.021

[GRAPHIC] [TIFF OMITTED] T6773.022

[GRAPHIC] [TIFF OMITTED] T6773.023

[GRAPHIC] [TIFF OMITTED] T6773.024

[GRAPHIC] [TIFF OMITTED] T6773.025

[GRAPHIC] [TIFF OMITTED] T6773.026

[GRAPHIC] [TIFF OMITTED] T6773.027

[GRAPHIC] [TIFF OMITTED] T6773.028

[GRAPHIC] [TIFF OMITTED] T6773.029

[GRAPHIC] [TIFF OMITTED] T6773.030

[GRAPHIC] [TIFF OMITTED] T6773.031

[GRAPHIC] [TIFF OMITTED] T6773.032

[GRAPHIC] [TIFF OMITTED] T6773.033

[GRAPHIC] [TIFF OMITTED] T6773.034

[GRAPHIC] [TIFF OMITTED] T6773.035

[GRAPHIC] [TIFF OMITTED] T6773.036

[GRAPHIC] [TIFF OMITTED] T6773.037

[GRAPHIC] [TIFF OMITTED] T6773.038

[GRAPHIC] [TIFF OMITTED] T6773.039

[GRAPHIC] [TIFF OMITTED] T6773.040

[GRAPHIC] [TIFF OMITTED] T6773.041

[GRAPHIC] [TIFF OMITTED] T6773.042

[GRAPHIC] [TIFF OMITTED] T6773.043

[GRAPHIC] [TIFF OMITTED] T6773.058

[GRAPHIC] [TIFF OMITTED] T6773.044

[GRAPHIC] [TIFF OMITTED] T6773.045

[GRAPHIC] [TIFF OMITTED] T6773.046

[GRAPHIC] [TIFF OMITTED] T6773.047

[GRAPHIC] [TIFF OMITTED] T6773.048

[GRAPHIC] [TIFF OMITTED] T6773.049

[GRAPHIC] [TIFF OMITTED] T6773.050

[GRAPHIC] [TIFF OMITTED] T6773.051

[GRAPHIC] [TIFF OMITTED] T6773.052

[GRAPHIC] [TIFF OMITTED] T6773.053

[GRAPHIC] [TIFF OMITTED] T6773.054

[GRAPHIC] [TIFF OMITTED] T6773.055

[GRAPHIC] [TIFF OMITTED] T6773.056

[GRAPHIC] [TIFF OMITTED] T6773.057


</pre></body></html>
